<html>
<title> - [H.A.S.C. No. 109-114] STATUS OF SECURITY AND STABILITY IN AFGHANISTAN</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 109-114]

            STATUS OF SECURITY AND STABILITY IN AFGHANISTAN

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 28, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES



                     U.S. GOVERNMENT PRINTING OFFICE

32-979 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
               Stephanie Sanok, Professional Staff Member
                Julie Unmacht, Professional Staff Member
                   Regina Burgess, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Wednesday, June 28, 2006, Status of Security and Stability in 
  Afghanistan....................................................     1

Appendix:

Wednesday, June 28, 2006.........................................    57
                              ----------                              

                        WEDNESDAY, JUNE 28, 2006
            STATUS OF SECURITY AND STABILITY IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Eikenberry Lt. Gen. Karl, Commander, Combined Forces Command--
  Afghanistan, U.S. Army.........................................     9
Kunder, Hon. James R., Assistant Administrator for Asia and the 
  Near East, U.S. Agency for Intenational Development accompanied 
  by John Gastright, the Afghanistan Coordinator at the State 
  Department.....................................................    12
Long, Hon. Mary Beth, Principal Deputy Assistant Secretary of 
  Defense for International Security Affairs.....................     6
Tandy, Hon. Karen P., Administrator, Drug Enforcement 
  Administration.................................................     3

                                APPENDIX

Prepared Statements:

    Eikenberry, Lt. Gen. Karl....................................    77
    Kunder, Hon. James R.........................................    79
    Long, Hon. Mary Beth.........................................    73
    Skelton, Hon. Ike............................................    61
    Tandy, Hon. Karen P..........................................    66

Documents Submitted for the Record:

    General Barry R. McCaffrey's (Ret.), June 3, 2006, Academic 
      Report--Trip to Afghanistan and Pakistan, from May 19 
      through May 26.............................................    89

Questions and Answers Submitted for the Record:

    Ms. Davis of California......................................   101
    Ms. Sanchez..................................................   101
    Mr. Taylor...................................................   101
            STATUS OF SECURITY AND STABILITY IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 28, 2006.
    The committee met, pursuant to call, at 10:07 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    This morning, the committee again focuses its attention on 
the Global War on Terror with a hearing on our ongoing security 
and stability activities in Afghanistan.
    Our witnesses are the Honorable Karen Tandy, administrator, 
Drug Enforcement Administration; Ms. Mary Beth Long, principal 
deputy assistant secretary for international security affairs, 
Department of Defense; Lieutenant General Karl Eikenberry, 
commanding general, Combined Forces Command-Afghanistan; and 
the Honorable James Kunder, assistant administrator for Asia 
and the Near East, U.S. Agency for International Development. 
Thank you, folks, for being with us today. We look forward to 
your testimony. Appreciate your appearance.
    Our forces in Afghanistan typify the quiet dedication and 
professionalism that we as Americans have grown used to seeing 
from our military personnel. Numbering over 21,000, these brave 
men and women often labor off the front page of our Nation's 
newspapers.
    Progress is deliberate and perhaps in the day-to-day view 
unexciting. But I think if you look back at how far that small 
but very important country has come, you begin to grasp the 
depth of the commitment of our military and civilian officials 
to see this job through until the end.
    We would do well to remember what Afghanistan looked like 
under the Taliban regime less than five years ago. Girls over 
the age of eight could not go to school. Women were treated as 
personal property. People could not believe as they saw fit. 
Taliban rulers coexisted happily and indeed supported the 
people who murdered thousands of Americans in a single day. 
Today schools are open. People can vote for their own leaders, 
a number of which are women. Far from being ruled by a regime 
that supports terrorism, Afghanistan is a fledgling democracy 
whose friendship and partnership are invaluable to the United 
States. Our last hearing on Afghanistan was over a year ago, 
and we need to get an update on the progress that is being made 
there.
    Since last summer, Afghanistan has held its first 
parliamentary and provincial elections in almost 30 years. 
December saw the first session of that inaugural parliament. 
Good men and women continue to step forward in Afghanistan and 
are taking active roles in their nation's stability and 
reconstruction.
    As expected, U.S. men and women continue to serve in the 
security sector both within North Atlantic Treaty Organization 
(NATO) and through the Combined Forces Command-Afghanistan. 
Military and civilians together are also building a better 
Afghanistan through provincial reconstruction teams and U.S. 
Agency for International Development projects.
    Coalition partners are also maintaining or even increasing 
their commitment to Afghanistan's stability and reconstruction. 
This summer, the NATO-led International Security Assistance 
Force will take over primary security responsibility for three-
quarters of the country and will lead reconstruction efforts in 
northern, western and southern Afghanistan.
    The Afghan National Army continues to come on-line. One 
year ago, no ANA units were capable of taking the lead in 
security operations. This year, six units serve on the front 
lines of their own country's defense. A full 40 combat units 
fight along side coalition forces in the day-to-day effort to 
keep peace and build security in Afghanistan.
    A lot of work remains to be done. Afghanistan and its 
partners must cut off any resurgence of Taliban influence and 
violence now, while also clamping down on a serious poppy 
cultivation issue. No one denies that these are difficult 
problems and that the end is still far off.
    But I think the Afghans, Americans and international 
partners prove every day that, if we will give the people of 
Afghanistan the tools, they will fight for their nation's long-
term stability and development.
    During today's hearings, I hope we hear how we can help 
you, as U.S. officials deeply involved in these efforts, to do 
your jobs better.
    So thank you for being with us. This is a very critical 
issue. And it is good to revisit this issue at this point.
    And before we go to our witnesses, let me recognize my 
great colleague on the committee, the gentleman from Missouri, 
Mr. Skelton, for any remarks he would like to make.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, to speed up the hearing, because 
we have so many witnesses, I ask unanimous consent that my 
prepared statement be put into the record.
    The Chairman. Without objection.
    Mr. Skelton. I welcome the witnesses. And it is especially 
good to see General Eikenberry here once again.
    And thank you, sir, for your leadership. It is 
extraordinary.
    It has been more than four and a half years since the 
invasion of Afghanistan following the terrorist attack of 
September the 11th. And the question is, what type of progress 
have we made since that time?
    The news media, General, reports about the resurgence of 
the Taliban in the south, about the various firefights that go 
on. Are we fighting the Taliban? Plus, are we fighting the al 
Qaeda or doing so in combination thereof? Are we fighting just 
warlords because of the nature of the culture?
    There is a transition coming up with NATO and its 
leadership and our role in the NATO piece; the huge amount of 
heroin that is being produced and whether the enemy or enemies 
are profiting from that--we would like to learn all of that 
from you.
    And since we have so many witnesses, I will stop at that.
    But we have real challenges there. I was led to believe a 
year ago that there was light at the end of the tunnel. And if 
there is light at the end of the tunnel today, we would like to 
know about it. Or will we be there 20 or 25 years?
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 61.]
    The Chairman. I thank the gentleman.
    Administrator Tandy, thank you for being with us today. And 
obviously, your piece of this challenge is a very important 
one, one that we don't focus on a lot in this committee, but 
nonetheless one that compels review. So thank you for being 
with us, and we look forward to your statement.
    And incidentally, the written statements of all of our 
guests today will be taken into the record, so feel free to 
summarize, and your written statement will be incorporated.

     STATEMENT OF HON. KAREN P. TANDY, ADMINISTRATOR, DRUG 
                   ENFORCEMENT ADMINSITRATION

    Ms. Tandy. Thank you, Mr. Chairman.
    Chairman Hunter, Ranking Member Skelton and the 
distinguished members of this committee, the Drug Enforcement 
Agency (DEA) and I, personally, appreciate the opportunity to 
appear before you today and discuss DEA's counternarcotics 
efforts in Afghanistan. And on behalf of my 11,000 DEA members, 
and in particular the brave men and women serving in 
Afghanistan with DEA, I thank you for your support for our 
counternarcotics efforts there.
    Much of the security and stability in Afghanistan rises and 
falls with the drug trade. The country's production of 92 
percent of the world's heroin substantially contributes to the 
instability, violence, and lawlessness that we see in 
Afghanistan.
    This drug trade also has the capability of financing 
terrorists and those who support them. While in power, as the 
chairman referred to, the Taliban banned poppy cultivation. But 
they did not ban trafficking or processing of opium. The 
Taliban, during that time, also used its poppy cultivation ban 
to drive up the price of its own substantial stockpiles of 
opium. The Taliban's association with opium and heroin 
smuggling trade continues today, as they opportunistically use 
proceeds from the Afghan drug trade of today, that it taxes and 
protects, as a source of revenue for the anti-coalition 
activities.
    As President Karzai said recently, if we don't destroy 
poppy, it will destroy us. Attacking the drug trade is critical 
to achieving stability in this struggling country. And DEA is 
combating drugs in Afghanistan, just as we do in every other 
country of the 85 foreign offices that we hold. We are going 
after the kingpins and the criminal organizations that control 
the drug supply.
    I need to be very clear on a point that often is confusing. 
DEA goes after the traffickers and the transnational drug 
enterprises at the command and control level, not the crops. 
DEA is not involved in poppy eradication. Crop eradication is 
handled by the State Department's Bureau for International 
Narcotics and Law Enforcement Affairs.
    While crop eradication and interdiction, or the seizure of 
druglords, if you will, are important to be sure to achieve 
lasting success in reducing the supply and in restoring the 
rule of law, we also must focus on identifying, disrupting, and 
dismantling high-level trafficking organizations, their 
leaders, their infrastructure, and their illicit assets, if we 
are to have lasting success. Targeting the Afghan kingpins also 
will help prevent this country from returning, as it once was 
25 years ago, the major supplier of heroin to the United 
States.
    As this committee appreciates, the challenges we face 
fighting the drug trade in Afghanistan are tough: conducting 
law enforcement operations in a war zone often controlled by 
powerful heroin warlords in a country where the drug trade and 
culture is deeply entrenched, with an undeveloped 
infrastructure and fledgling Afghan law enforcement 
organizations. But these challenges are not insurmountable. In 
the past year alone, we have made great progress.
    Afghanistan has promulgated new narcotics laws. They have 
conducted their first arrest and search warrants under those 
laws. They have ordered the first extradition of a major drug 
trafficker connected to the Taliban.
    They have established a central tribunal court and 
prosecutors, which they did not have before, and conducted the 
successful prosecution of more than 100 traffickers.
    In addition, DEA's counternarcotics programs are proving to 
be a valuable asset in the stabilization of Afghanistan and a 
value added to the security of the U.S. and coalition forces 
there. Since December 2005, DEA has collected and shared 
actionable intelligence with coalition and Afghan partners on 
more than eight occasions. And that intelligence that we shared 
directly averted deadly attacks against U.S. military personnel 
and leaders in Afghanistan.
    This past April marked the one-year anniversary of DEA's 
deployment of our foreign-deployed advisory and support, or 
FAST, teams, as they are known. FAST, which are supported and 
largely funded by DOD, re-enforce our primary mission of 
dismantling the drug-trafficking organizations in that country 
and that region.
    As part of the FAST team investigations against the drug 
supply networks, the FAST teams also destroy related opium 
storage sites, heroin processing labs and precursor chemical 
supplies, all of which directly related to the targeted drug 
enterprises.
    In just the first 6 months of those DEA operations with the 
FAST teams, opium seizures totaled 38 metric tons, which is a 
700 percent increase from the prior 6 months of opium seizures 
in Afghanistan.
    These FAST teams also were deployed to Afghanistan to 
establish the National Interdiction Unit, or NIU, as it is 
known. DEA mentors the NIU and assists them in building their 
capacity as our future counterparts to disrupt and dismantle 
these trafficking organizations.
    The first joint DEA-NIU investigation did just that. It 
resulted in the arrest of Misri Khan, the long-time head of a 
major Afghan heroin organization, and two of his key 
lieutenants. All 3 of those defendants have been convicted and 
each sentenced to 17 years in prison by the new central 
narcotics tribunal in Kabul under the new Afghan narcotics 
laws.
    DEA activities in Afghanistan also resulted in the October 
2005 landmark extradition of an Afghan citizen from 
Afghanistan. In that instance, the person extradited was a 
major trafficker, Haji Baz Mohammad, who boasted that he sent 
heroin as a form of Jihad against the United States in order to 
kill Americans.
    This Taliban-linked narco-terrorist, the first ever 
extradited to the United States from Afghanistan, was charged 
with conspiring to export more that $25 million worth of heroin 
from Afghanistan to the United States and other countries.
    In April of last year, DEA arrested former Taliban member 
Haji Bashir Noorzai on U.S. charges that he conspired to export 
more than $50 million worth of heroin from Afghanistan and 
Pakistan into the United States and other countries. His arrest 
led to the disruption of his entire organization.
    Both Noorzai and Baz Mohammad are awaiting trial in the 
U.S. courts. Both are the only two Afghan narcotics traffickers 
ever to have been listed among the world's most-wanted drug 
kingpins and sanctioned by President Bush under the Foreign 
Narcotics Kingpin Designation Act.
    DEA also has been active in the countries surrounding 
Afghanistan. In 2002, we began leading a 19-country initiative 
known as Operation Containment, which essentially was intended 
to place a security belt around Afghanistan to prevent 
chemicals from entering the country and opium and heroin from 
leaving.
    This strategy has been successful. Prior to Operation 
Containment, less than one-half of one metric ton of heroin was 
seized. In the past fiscal year, Operation Containment resulted 
in the seizure of 11.5 metric tons of heroin, which is almost a 
3,000 percent increase.
    DEA is continuing to expand our operational capacity in 
Afghanistan through the assistance and funding of DOD. DOD is 
funding and constructing a base camp that is scheduled to be 
completed this fall to provide housing and mission support for 
our FAST and NIU teams.
    And in addition, on June 10th, the first two of eight DOD-
funded Mi-17 helicopters arrived in Kabul. And they will be 
operational by mid-July and dedicated to these counternarcotics 
efforts of DEA and the NIU. The remaining six helicopters are 
scheduled to arrive at the rate of two helicopters every six 
weeks until we reach the total of eight. These Mi-17s are 
essential, and they will be a significant help in providing 
greater mobility and increased operational security for our DEA 
and NIU agents on the ground.
    To close, the road ahead is difficult. And there is no 
short-term solution to these long-entrenched challenges facing 
Afghanistan. But DEA's counternarcotics efforts there, with the 
assistance of DOD, are contributing to the rebuilding of this 
struggling country. We are strengthening Afghanistan's 
institutions of justice and policing capabilities. And we are 
helping to protect the U.S. and coalition troops from deadly 
attacks that are funded in part by drug traffickers. All in 
all, the international law enforcement community's 
counternarcotics efforts are setting the stage for a more 
lawful and stable Afghanistan in the future.
    Thank you, and I look forward to answering the committee's 
questions at the appropriate time.
    [The prepared statement of Ms. Tandy can be found in the 
Appendix on page 66.]
    The Chairman. Thank you very much.
    Ms. Long, thank you for being with us today. And what do 
you think?

 STATEMENT OF HON. MARY BETH LONG, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Ms. Long. Thank you, Chairman Hunter. Thank you, 
Congressman Skelton and distinguished members, for the 
opportunity to be here today to speak about Afghanistan.
    As you know, it has been about a year since Assistant 
Secretary Rodman was here to speak about Afghanistan.
    The Chairman. You might get a little closer to that mike.
    Ms. Long. Yes, sir.
    And a lot has been accomplished in that year. That said, 
there is a lot that we need to do.
    As you know, we at the Department of Defense are fully 
committed, as is Congress, to assisting the Afghan people and 
the government in creating a place where there is long-term 
stability and economic progress that is sustainable. We believe 
that progress toward these goals is integral to our success in 
the Global War on Terror.
    But the United States cannot do this alone. We must do so 
with our allies and our partners.
    Afghanistan must never again serve as the training ground 
for terrorists. Our goal continues to be a moderate, democratic 
Afghan government that is capable of controlling its territory 
and achieving economic self-sufficiency. To that end, the 
Afghans are and will remain our true partners.
    The Taliban, ladies and gentlemen, have absolutely nothing 
to offer. They prey on ignorance and poverty. They work through 
violence and intimidation.
    As Lieutenant General Eikenberry will elaborate, the 
coalition, the International Security Assistance Force, or 
ISAF, and importantly the Afghan national security forces are 
capable of and will be capable in the long term of handling 
this kinetic Taliban challenge.
    The larger problem lies in fostering the overall conditions 
that will enable the Afghans to achieve long-term stability and 
economic self-sufficiency.
    We must continue helping that government build and sustain 
an environment in which its citizens, from the city dwellers to 
the farmers, from the teachers to the women and children at 
home, to have a better life through legitimate means.
    That is happening in much of the country. However, it is 
not happening everywhere. In places where the insurgency is 
active and where opium is the primary crop, the Afghan and our 
forces are challenged. This is a long-term effort, and it 
requires military muscle and more.
    We see our military's hard work, their bravery, and their 
tremendous achievements most prominently now in Operation 
Mountain Thrust, where, with our allies and the Afghan National 
Army, we are successfully engaging the Taliban.
    And Lieutenant General Eikenberry will elaborate on this 
multi-month, multi-province operation and how it is preparing 
the ground for long-term stability and for the transition to 
additional responsibilities by NATO.
    He will also elaborate on the other DOD missions, the 
training and equipping of the Afghan National Security Forces.
    The Afghan National Army, in particular, has made 
considerable progress in the last year. And both of our 
governments understand that it is Afghanistan's own forces that 
must take increasing responsibility for Afghan security.
    I believe that Administrator Tandy talked to you about the 
threat that opium plays. As she outlined, the Department of 
Defense does contribute to the overall counternarcotics effort, 
and I won't repeat those contributions here.
    Just as military matters are the responsibility of the 
Department of Defense, the U.S. State Department and the U.S. 
Agency of International Development have a lead on diplomacy 
and development. And I will leave the full treatment of those 
topics to my State Department colleagues and for Mr. Kunder.
    Of course, security and development are related. You can't 
have one without the other. And that means that, at a policy 
level and at an operational level, we must work together. And 
we do.
    You see that working together most dramatically at the end 
of the chain, which is our provincial reconstruction teams, 
where representatives of USAID, the Department of Defense and 
the other agencies work together at an operational level, where 
they foster security, development, and more capable government 
for the population. This is an attempt to overturn decades, if 
not a generation, of deterioration at the provincial and 
district levels.
    Happily, as you know, the United States is not alone in 
this pursuit. Canada recently took responsibility for the 
provincial reconstruction team (PRT) in Kandahar province and 
southern command. United Kingdom took responsibility for a PRT 
in Helmand province, with contributions from Denmark and 
Estonia. And the Dutch, as you know, are sending substantial 
forces to lead the PRT in Uruzgan province, with contributions 
from Australia.
    The transfer of authority in the south to NATO in the 
coming weeks will be treated more elaborately by Lieutenant 
General Eikenberry in his remarks.
    As you know, we have active diplomacy. And the 
international community provides a lot of needed economic and 
other assistance to Afghanistan.
    Earlier this year, at the donors' conference in London, 
there was an Afghanistan compact, which was constructed as the 
post-bond framework for development and reconstruction in 
Afghanistan. For the donors, the compact emphasizes 
accountability and coordination. For the Afghans, it represents 
its capability-building and local ownership of the development 
process.
    Our bilateral relations remain close and vibrant. From the 
Department of Defense perspective, the first meetings to 
advance the strategic partnership--and that agreement was 
signed by President Karzai and President Bush in May of last 
year. And our follow-on defense meetings took place just weeks 
ago in March.
    As you know, democracy is taking root. After successful 
parliamentary elections last year, they were followed by a 
nationwide turnout for the national assembly elections, which 
was accomplished and followed through with the first national 
assembly inaugural session just weeks ago. Thus far, the 
national assembly has confirmed 20 members of its cabinet and 2 
Supreme Court justices. It also modified and passed President 
Karzai's budget.
    The legitimate economy is growing. However, Afghanistan 
must still create a legal framework that will encourage private 
initiatives and foreign investments. The banking sector remains 
weak, and that is problematic for paying soldiers and the 
teachers and those who are in the provinces and the district.
    Despite progress on many fronts, violence is indeed up this 
year. The Taliban are testing ISAF forces. But factional 
violence has gone down, in part because many of the Mujahedeen 
and the illegally armed groups were at least partially disarmed 
over the last year.
    But there is much more to do, and General Eikenberry will 
speak to many of those issues.
    We need to help the government connect with the provinces 
and the districts and to provide a robust judicial sector. We 
believe that the overwhelming majority of the Afghan people 
have confidence in President Karzai and in the advances that 
they made. We share that confidence.
    We make progress every day, but we must keep in mind that 
this is a long-term effort.
    One of the world's least-developed countries, Afghanistan 
has few national resources that are developed. It has little 
infrastructure. It has a very high illiteracy rate. And recent 
history is marked by the Soviet invasion and decades-long civil 
wars.
    We work together with the Afghans to overthrow the military 
arm of the equally despised Taliban regime. Expectations are 
high. And our nations must work together to rise to meet that 
challenge.
    I know that the support of the Congress and the American 
people is behind our intergovernmental efforts in Afghanistan. 
And I welcome your comments.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Long can be found in the 
Appendix on page 73.]
    The Chairman. Thank you very much.
    General Eikenberry, how are you this morning?
    General Eikenberry. Very well, sir.
    The Chairman. We look forward to your comments. Thanks for 
your service and the service of all the great folks who are 
carrying the burden in that very challenging area of 
operations. And please let us know how things are going.

  STATEMENT OF LT. GEN. KARL EIKENBERRY, COMMANDER, COMBINED 
             FORCES COMMAND-AFGHANISTAN, U.S. ARMY

    General Eikenberry. Mr. Chairman, thank you very much.
    Chairman Hunter, Representative Skelton, members of the 
committee, it is an honor to be here today representing the 
28,000 soldiers, sailors, airmen, and Marines of the Combined 
Forces Command-Afghanistan.
    When the United States and its coalition partners began 
Operation Enduring Freedom in October 2001, we started with two 
missions: first, to defeat al Qaeda and their Taliban allies; 
and second, together with the Afghan people and the 
international community, to help create the conditions where 
international terrorism could never again find witting support 
and sanctuary.
    Viewed from the baseline of October 2001, the progress made 
to date in Afghanistan is truly significant: a democratically 
elected president, a sitting parliament, a confirmed cabinet, a 
functioning constitution, Afghan National Security Forces that 
are steadily growing in strength and capability, and the 
ongoing reconstruction projects across the country that are 
improving the lives of the Afghan people.
    Against this progress, Afghanistan remains the target of 
terrorist groups, drug traffickers, and a very determined 
criminal element. Not all violence can be attributed to Taliban 
or al Qaeda, as narco-trafficking, tribal conflicts and land 
disputes also continue to challenge the overall security 
environment.
    The enemy we face is not particularly strong, but the 
institutions of the Afghan state remain relatively weak. This 
situation is enabling the enemy to operate in the absence of 
government presence in some areas of Afghanistan. To be sure, 
the presence and strength of the Taliban has grown in some 
districts, primarily in southern Afghanistan. Since being 
removed as a regime, they have reconstituted elsewhere. We are 
seeing enemy forces now operate in formations of 40 to 50 
fighters in some districts. They are demonstrating better 
command and control, and they are fighting hard.
    Our current operation in southern Afghanistan, Operation 
Mountain Thrust, seeks to deny the enemy safe havens, to 
interdict his movement routes and, most importantly, extend the 
authority and writ of the central government of Afghanistan.
    The combat phase of this operation is only the precursor to 
our longer-term goal of strengthening good governance, the rule 
of law, reconstruction and humanitarian assistance, and 
economic development. This emphasis on government and 
development is indicative of our overall approach to the Afghan 
campaign.
    Provincial reconstruction teams are actively engaging 
district and provincial leaders to facilitate good governance. 
Medical assistance teams are treating thousands of Afghans who 
otherwise would not have access to medical care. And we are 
building hundreds of miles of roads. This latter effort is key 
to expanding the reach of the central government and 
jumpstarting the rural economy. I cannot overstate its 
importance.
    I have touched on our current operations, and I will be 
happy to answer any questions you may have in the discussion to 
follow. But with your permission, Chairman, I would like to now 
discuss the future.
    This summer, the NATO International Security Assistance 
Force, or NATO ISAF, will expand its areas of operations from 
northern and western Afghanistan into southern Afghanistan. We 
anticipate that NATO will assume responsibility for the overall 
security mission for all of Afghanistan at some point later 
this year.
    A key point to remember is that the United States' full 
commitment in Afghanistan will remain undiminished. As a NATO 
member, the United States will remain by far the single-largest 
contributor or troops and capability. We will maintain our 
strong national capability to support our counterterrorism 
mission to strike al Qaeda and its associated movements 
wherever and whenever they are found. Moreover, our military 
will continue to play a central role in the training and 
equipping of the Afghan national security forces. And we will 
remain a very important contribution to Afghanistan's 
reconstruction.
    In addition to the transition from U.S.-led coalition to 
NATO ISAF international military leads, Afghanistan's continued 
development will be marked by three other important 
transitions.
    The second transition under way is the increasing emphasis 
by the government of Afghanistan and the international 
community on the non-military aspects of our collective 
efforts.
    As I just explained, this effort relates to Operation 
Mountain Thrust. I need to emphasize that it is the heart of 
our long-term effort to make Afghanistan a viable self-
sustaining member of the international community, free from 
international terror. In short, we seek to rebuild 
Afghanistan's middle ground--that is, its civil society ravaged 
by three decades of warfare, extremism, and terrorism.
    Throughout Afghanistan's 34 provinces, rebuilding the 
middle ground remains the primary concern of the Afghan people. 
Indeed, a recent poll of the Afghans showed that 80 percent see 
economic reconstruction, not security, as their number-one 
need.
    To further enhance security and stability, the government 
of Afghanistan and the international community must continue to 
work together to improve governance, the rule of law, economic 
reconstruction, and social services.
    In campaigns such as this, the construction of roads and 
schools can be just as decisive, if not more, than military 
operations. The international community must make greater 
efforts in this area.
    The third transition is from international-to Afghan-lead 
in all dimensions of Afghan governance and security. The growth 
in size and capability of the Afghan national security forces--
that is, the national army and the police--is one of the most 
visible aspects of this important transition.
    Today, over 66,000 army and police are trained, equipped 
and engaged in security operations. The Afghan national 
security forces, partnered with the coalition and NATO units, 
are expanding their reach and presence more widely within the 
country. They are increasingly playing a major role in ensuring 
the stability of their nation, as evidenced by their very 
successful participation in the ongoing Operation Mountain 
Thrust.
    It is imperative that the international community maintain 
its support and its commitment to this essential but still 
emerging institution of the Afghan state. We can anticipate 
emerging equipment requirements for the Afghan national army 
and police that NATO and the international community will need 
to address.
    The fourth and final transition relates to the need to find 
cooperative approaches to the fight against international 
terrorism. Afghanistan, Pakistan, and the international 
community are threatened by a common enemy. We have endeavored 
to adopt a coordinated military approach to address this 
threat, working to improve our combined operational 
effectiveness and build mutual confidence.
    For example, on June the 6th, I represented the United 
States at the 17th session of the Afghan-Pakistan-U.S. 
Tripartite Commission at Rawalpindi, Pakistan. This session, 
like those before it, served to further cooperation between the 
coalition, Afghanistan, NATO ISAF and Pakistani military 
forces. We aim to expand information-sharing, communications 
and personal interactions at all levels of command. And I 
believe we are making significant progress.
    In my discussion of the progress in Afghanistan, I do not 
want to discount the enormous obstacles that remain. Much work 
needs to be done. And the international community must remain 
patient and maintain uncompromising long-term commitment to 
Afghanistan's success if we are collectively to prevail.
    Most pressing, the continuing assaults on Afghanistan by 
international terrorism, as well as narco-trafficking and the 
related corrosive effects on the government of Afghanistan, 
could threaten the viability of the Afghan state.
    However, we should not be daunted by these challenges. 
Instead, we should take stock of the tremendous progress that 
Afghanistan and the international community have made to date 
and apply that same commitment to the difficulties that lie 
ahead.
    Mr. Chairman and members of the committee, thank you again 
to this opportunity. And I look forward to your questions.
    [The prepared statement of General Eikenberry can be found 
in the Appendix on page 77.]
    The Chairman. Thank you, General, for a very comprehensive 
statement.
    Mr. Kunder, thank you for being with us, sir. And the floor 
is yours.

  STATEMENT OF HON. JAMES KUNDER, ASSISTANT ADMINISTRATOR FOR 
     ASIA AND THE NEAR EAST, U.S. AGENCY FOR INTERNATIONAL 
  DEVELOPMENT ACCOMPANIED BY JOHN GASTRIGHT, THE AFGHANISTAN 
              COORDINATOR AT THE STATE DEPARTMENT

    Mr. Kunder. Thank you, Mr. Chairman, Mr. Skelton, members 
of the committee. I appreciate the opportunity to be here 
today.
    I am joined by Mr. John Gastright, the Afghanistan 
coordinator at the State Department, if members of the 
committee have any questions regarding our diplomatic or 
political efforts in Afghanistan.
    Sir----
    The Chairman. Excellent.
    And I have to leave for just a few minutes, but I will be 
back very shortly, Mr. Kunder, but go right ahead, sir.
    Mr. Kunder. Thank you, sir.
    On the tried and true principle that a picture is worth a 
thousand words, I have in our testimony pack this powerpoint 
that I am going to walk through very briefly, about ten slides, 
to summarize the program. I believe each member has a copy of 
this in your packet.
    This is entitled ``Progress in Afghanistan.'' And it 
summarizes very briefly the U.S. Agency for International 
Development reconstruction program in Afghanistan.
    I want to say at the outset, as several members of the 
panel have already said, we work in very close tandem with our 
military colleagues. I had the opportunity to work in 
Afghanistan myself, and my tour of duty overlapped with the 
general's during his earlier tour.
    I think members of the committee are aware of the fact that 
this is the second time around for General Eikenberry in 
Afghanistan. He has given two years of devoted service to the 
reconstruction of that country.
    On this slide show, the very first slide just is the cover 
obviously, but I just wanted to point out that picture in the 
lower right-hand corner. I know many members of the committee 
have been to Afghanistan, but that gives you some sense of the 
terrain we are working in. This happens to be a road project 
being pushed into the central highlands. But it is some of the 
most tortured terrain in the world in which to do 
reconstruction activities.
    The first slide, entitled ``Transition Strategy,'' 
basically gives the outline of what we are trying to accomplish 
from a reconstruction point of view in Afghanistan.
    Starting from the bottom of the page, it talks about the 
early stages of our work was in relief and stabilization, where 
we tried to take on problems like the humanitarian needs of 
Afghanistan, the displaced people across the country from that 
23 years of fighting that Mary Beth Long referred to.
    Where we are now is in the middle of this chart, what we 
are calling the reconstruction phase. What we are trying to do 
is focus on building Afghan capacity to take care of their own 
problems, building the Afghan government's capacity, taking 
care of economic growth because we know foreign aid is not the 
long-term answer to Afghanistan's economic stability. And where 
we are headed is at the top of the page. And we are looking at 
about 2011 forward, where we hope the Afghan government can 
take on the bulk of the responsibilities for their own 
reconstruction activities.
    On slide three, is a quick snapshot of the major 
infrastructure projects around the country, including both 
electrical and road construction projects. I think this 
illustrates two things. Number one, as we understand the 
criticality of this physical infrastructure reconstruction to 
bringing stability to Afghanistan--and we are doing a lot of 
work around the country. The total roadwork right now would 
stretch from Washington to Tulsa, Oklahoma.
    But you can also see from this slide that there is an 
awfully lot of the country that isn't spoken for yet. We are 
trying to get some of our other allies involved in the 
infrastructure area. But there is a lot going on, a lot more 
work to be done in physical infrastructure.
    Slide four gives a couple snapshots of road construction 
activities in Afghanistan. There is very extensive 
infrastructure work going on. And as I say here, roughly 75 
percent of the employees working on the Kandahar Highway, for 
example, are Afghans themselves. We are trying to bring the 
Afghan ministries and the Afghan construction firms into this 
so that we leave something behind.
    This work--and again, I know some of you have seen some of 
these highways--to build the Kabul to Kandahar Highway, we 
literally trucked blacktop asphalt from Pakistan, a truckload 
at a time, over the Khyber Pass.
    If you can imagine a road construction project where you 
travel truckloads at a time, dump a load of asphalt, then the 
truck turns around and drives back over the Khyber Pass to 
Pakistan to get another truckload, this is the kind of 
construction difficulties we are facing.
    Yes, sir?
    Mr. Saxton [presiding]. Could I just interrupt you for just 
a moment----
    Mr. Kunder. Yes, sir.
    Mr. Saxton [continuing]. To inform my friends on the 
committee.
    This is a single vote. Mr. McHugh has gone to vote. He will 
be back. When he comes back, I will go vote. So you all go, 
make up your own mind when you want to vote during this next 20 
minutes or so. But we are going to keep going.
    Mr. Kunder. Should I continue, sir?
    Mr. Saxton. Yes.
    Mr. Kunder. Slide five gives a snapshot of the schools and 
health clinics we are building in Afghanistan.
    Again, we try to illustrate two things: one, we are trying 
to cover the whole country but, second, there are enormous 
needs and enormous gaps.
    And slide six shows a typical school construction project, 
either schools that had deteriorated over the last 23 years of 
violence or schools that had been destroyed in the fighting. On 
the left are the schools before and on the right are the 
schools afterwards.
    Slide number seven shows our part in the battle against 
opium poppy cultivation. What we are trying to do is develop 
what we call the alternative livelihoods, that is to say, a 
better chance at a better living without growing poppies. I 
think members of the committee are familiar with these 
statistics, but wheat is the primary grain crop in Afghanistan. 
Depending on the price for opium, a farmer can earn somewhere 
between 10 to 30 times growing poppy what he can earn growing 
wheat--10 to 30 times. So that the problem is what kinds of 
alternative livelihoods can we develop--grapes, spices, 
almonds--where a farmer can get a decent return on investment.
    Slide eight shows the kinds of programs we are working on 
to battle opium poppy cultivation. We are doing--in the left-
hand side you see some workers working on an irrigation canal. 
We do short-term work like this so farmers can get back to work 
without engaging in opium poppy growing. And then on the lower 
right, you see a grape field. And this is the kind of long-term 
economic opportunities we are trying to work on.
    Slide nine talks about what we are really trying to get at 
and that is building a long-term Afghan economy. The economy 
was so devastated during the years of the civil war that what 
we have got to do is rebuild the financial sector. We have got 
to create an investment regime that brings in private sector 
investment. And we are having some success. The photo on the 
right shows a sugar manufacturing facility in one of the new 
industrial parks we are building in Afghanistan.
    Slide ten attempts to answer for the committee a question I 
often get, which is, is the reconstruction effort being slowed 
down by violence in the country, by the increased violence that 
General Eikenberry was talking about.
    The top three slides show cumulative progress in paving 
roads, putting farmers back to work and building schools and 
clinics. And you can see the trend line continues up. We are 
able to continue progress in these critical reconstruction 
areas.
    The bottom slide, though, shows our casualties. These are 
civilian casualties primarily Afghans themselves who were 
involved in the reconstruction effort. On the left are security 
personnel, many of them Afghan guards, guarding highways, for 
example. And on the right are primarily international 
reconstruction workers.
    So we are taking casualties. But we are able to continue 
the reconstruction work.
    And finally, slide number 11 shows some of the benchmarks 
of reconstruction thus far. I would simply--this is for the 
members to look through at their leisure--but I would point out 
bullet number five, domestic revenues increasing, again, 
recognizing that foreign aid is not going to last forever in 
Afghanistan.
    And one of the things we have been focusing on is getting 
the Afghans to raise their own revenues. Most of the domestic 
revenues are from border crossings, from customs duties. Those 
customs posts were previously controlled by warlords. And what 
we have managed to do, as a U.S. Government team, is push that 
more and more to the central government.
    So now, the Afghan government, President Karzai, is raising 
$260 million a year of his own money to spend on 
reconstruction. And of course, we hope that number goes up 
considerably.
    Mr. Chairman, this is a snapshot of the kinds of 
reconstruction activities we are doing in Afghanistan.
    I am pleased to answer any questions the committee has.
    [The prepared statement of Mr. Kunder can be found in the 
Appendix on page 79.]
    Mr. Saxton. Let me just thank each of you for what I 
interpret as a very realistic picture of what is going on in 
Afghanistan.
    The initial phase of the war on terror, at least the 
offensive phase that we put into effect was, of course, 
Afghanistan. In the years since October 2001, it has become 
fairly evident that this is a long war. And I think that it 
would be fair to characterize your very open testimony this 
morning as evidence that we have concluded that this is a long 
war.
    We have economic issues, cultural issues, societal issues, 
security issues, among other issues to deal with in places like 
Afghanistan and Iraq. Let me just ask you for your assessment 
of progress that we might expect to see going forward.
    And I would ask you, I guess in this vein--concerned is the 
wrong word--but an outlook which realistically assesses what we 
might be expecting to see in the years ahead, particularly in 
Afghanistan, and each of the sectors that you have talked 
about.
    Let's just start with Ms. Tandy and move across. Just give 
us your objective view of what we expect going forward.
    Ms. Tandy. On the counternarcotics front, I think that we 
are well under way in building the capacity for the National 
Interdiction Unit in Afghanistan both to grow beyond Kabul and 
move to forward positions in the country. As well as their 
capacity to actually go after and dismantle these principle 
trafficking organizations.
    The DEA piece of that, I would anticipate with the supply 
of the helicopters that are coming from DOD to give DEA greater 
mobility and reach in the country to some principle provinces 
where we have been unable to go that are key areas for us in 
the way ahead in fighting counternarcotics.
    Mr. McHugh [presiding]. Thank you. I am sure I asked a 
brilliant question, but I wasn't the one that asked it. 
[Laughter.]
    I hope someone has explained to our distinguished panelists 
the process here. And we appreciate your understanding and 
patience.
    This is a hard choice, but I think I will deal with----
    Ms. Tandy. Do you want the rest of the panel to comment?
    Mr. McHugh. Oh, I am sorry. The rest of the panel is going 
to answer that question. Well, see I stepped in over my pay 
grade.
    Ms. Long.
    Ms. Long. Thank you, Mr. Chairman.
    From a broad perspective, the national assembly just ended 
its first session, having been elected last September, just 
last week, or two weeks ago, I guess, it would be now on June 
5th. And they actually accomplished a tremendous amount in a 
very short period of time. And we went through some of those 
accomplishments with you.
    I think it is fair to expect in the next year that the 
national assembly and the ministries will be concentrating on 
building their ministerial capacity from a central government 
point of view, in particular, that they will be building their 
capacity to reach to out into the provinces and into the 
districts.
    It has been a long process in establishing the concept, 
which is working and has been favorably blessed by the Afghan 
people, the idea of a central government. And I think in the 
next years you will see an effort to stabilize that, to build 
that capacity, and to reach out into the province and district 
level in order to promulgate that governance and to build the 
institution's ability to reach out.
    Corresponding with that, we need a justice sector to reach 
out to the provinces and the districts, and a policing 
capability that corresponds with that, as well as economic 
development that reaches not only out from Kabul but that is 
seen and felt by individual Afghans in villages and provinces.
    I think all that is very realistic to see in the next 
years, particularly as NATO steps up to assume assisting the 
Afghans in stabilizing the various provinces where they will be 
occupying PRTs and providing other assistance.
    I also think it is realistic to see Afghanistan come into 
its own as a regional player. They are already reaching out to 
their neighbors. And we should expect that. And that we should 
look variably upon that. This is a sovereign government that 
deserves all of our support.
    I think that we also need, as a final comment, to play our 
role in helping the international community not only from a 
security perspective but particularly from an economic 
development perspective to assist Afghanistan in developing the 
capacities that I just outlined.
    Mr. McHugh. Thank you very much.
    General.
    General Eikenberry. Sir, for success in Afghanistan, long-
term success, all of us, the international community, the 
United States, the Afghan people, we are going to need patience 
and perseverance to prevail there.
    I do use the metaphor of what we call the middle ground. I 
said that in my opening remarks to try to explain what we are 
accomplishing there. When I talk to my soldiers, sailors, 
airmen, and Marines, we use that metaphor of middle ground. If 
I could just explain that, it helps us, I think, to all 
identify then what are the key tasks that have to be 
accomplished.
    Afghanistan, after 30 years of very brutal civil war and 
war among themselves, they have given up what we call the 
middle ground in civil society. All of here, right here in 
Washington, D.C., we stand on middle ground that we take for 
granted.
    That middle ground in civil society is access to law 
enforcement if there is a threat against us. It is access to a 
reasonable justice system if we are threatened. It is 
reasonable access to health care and to education for our 
children, in all domains, reasonable access to different 
services and protection.
    The Afghans, over the last 30 years, they have had their 
middle ground taken away from them from a war against the 
Soviets, war among themselves and most recently war against a 
very brutal Taliban regime. And so in the absence of that 
middle ground, international terrorism then is able to get a 
foothold in places like Afghanistan.
    What we succeeded in doing in 2001, 2002, is toppling the 
al Qaeda Taliban regime. But now, our harder task at hand is to 
try to help the Afghan people rebuild that middle ground.
    So in my own remarks, I talked about the building of 
security forces. And we have had, from Ms. Tandy, a discussion 
of what has to be done in the domain of counternarcotics, from 
Mr. Kunder, the building and reconstruction. All of that coming 
together to help create this middle ground for the Afghan 
people.
    Now, our military role is--if we use the metaphor of middle 
ground, our military role is to try to provide a security 
perimeter behind which the Afghan people then can build this 
middle ground themselves with our assistance.
    Over time, our expectation is, our aspiration is, and the 
Afghan people's aspiration is that that security perimeter goes 
from us maintaining it to the Afghan national army, the Afghan 
national police.
    I am optimistic with the progress that we are making on the 
ground with the Army, and increasingly now with the police 
program that is being delivered, that the Afghans will be able 
to take charge of their own security.
    But the larger effort, the more sustained effort, has to be 
in to building that middle ground of the Afghan civil society.
    If you ask me, Chairman, the question right now, would I 
prefer to have another infantry battalion on the ground of 600 
U.S. soldiers or would I prefer to have $50 million for roads, 
I would say the answer is I would prefer to have $50 million 
for roads. Because that is what is needed right now to get the 
economy of Afghanistan moving forward, which ties then into the 
security of the Afghan people.
    Mr. McHugh. Thank you, General.
    Mr. Kunder.
    Mr. Kunder. Thank you, sir.
    To answer the question what does the future hold, you have 
to start with where are we now.
    And I am glad the chairman mentioned earlier that 
Afghanistan was one of the poorest places on the face of the 
Earth before 23 years of war--one of the poorest places before 
23 years of war.
    So that where we are starting from--it is not a question of 
we had a going concern and then it was destroyed in fighting so 
we just restore the going concern. This was a place by any 
social economic measurement you could dream up, literacy rates, 
infant mortality rates, was one of the dead last countries on 
the face of the Earth. So patience and perseverance, as General 
Eikenberry said, are the key words.
    Right now, the data are that probably about one in four 
Afghan children die before the age of five. Twenty-five percent 
of the children die before the age of five.
    To move such numbers, to make the kind of systematic change 
that requires this to be a going concern requires time based on 
our experience in a lot of other countries in the world where 
we have had success improving the education rates, the health 
care rates.
    There are no silver bullets. There are no quick fixes. The 
reason those children of dying has a whole bunch to do with the 
health-care system, nutritional practices, lack of access to 
clean water. And those things do not change over night. So I am 
very optimistic for the long term in terms of turning those 
kinds of numbers around, but only if we think in the long term.
    Mr. McHugh. Thank you all very much, gentlemen.
    Mr. Tyler. Gene. Taylor. I said Tyler.
    Mr. Taylor. Mississippi.
    Mr. McHugh. Tyler comes next.
    Mr. Taylor. Thank you, Mr. Chairman.
    I want to thank our panel for being here, particularly you, 
general.
    You have all got tough jobs. No one wants to see our Nation 
fail. But I don't think we do ourselves any favors when we 
mislead the public. And particularly, Ms. Tandy, you know, your 
oral statements are very upbeat; your written statements are 
not.
    The idea that somehow an additional eight helicopters 
rushing surplus at that is going to make a difference that 
would stretch from New Orleans to Washington, D.C., and then 
throw in 11,000- to 13,000-foot-tall mountains; a country that 
produced over 4,000 metric tons of heroin last year; a country 
that has had skyrocketing heroin production. Again, I think we 
are a little bit smarter than that.
    Since I have never had the opportunity to speak to you, you 
know, we have got a dysfunctional drug policy. We are spending 
a fortune down in Columbia to pay DynCorp, very brave people, 
to fly crop dusters, spraying Roundup and other chemicals, 
herbicides on the poppies and on the coca down there. We are 
paying other guys to protect them, flying around in Hueys as 
gun ships to keep them from getting shot down. We are spending 
probably $1 billion a year down there between all the different 
sources.
    We are spending a lot of money apparently in Afghanistan as 
opium has skyrocketed. The only thing the Taliban did right was 
shut down opium production.
    And I want to pose this question to the lieutenant general 
in a moment. If we got serious about shutting down the drug 
trade, it is my opinion those guys would turn on us. And we 
would have a situation on our hands that even the Russians 
would find worse than what they saw.
    And in particular, Ms. Tandy, what I think--I would hope 
you would admit the drug problem in America isn't heroin from 
Afghanistan. It is not cocaine from Columbia. It is 
methamphetamines made in people's backyards in rural 
Mississippi, in rural Alabama, maybe even in rural New York, 
for all I know.
    And so again, I just see this dysfunctional system where 
there is always the silver bullet whether it is the 20 
Blackhawks that we sent to the Columbians and now the 8 
helicopters we are going to send to Afghanistan. Somehow trying 
to make the American people think this is going to make a 
difference when it really doesn't.
    And believe me, I am not a proponent of drugs. I think we 
ought to have mandatory drug testing for every single Federal 
employee, maybe starting with you and I after reading your 
testimony.
    So my question is for the record. I have had a reporter 
that I consider to be a credible source tell me that that 
reporter--I am trying not to mention a sex--thinks that 
President Karzai or his family, but certainly members of his 
administration, profit from the drug trade.
    Now, for the record, is that or is that not true, to the 
best of your knowledge?
    Ms. Tandy. Mr. Taylor, I have, first of all----
    Mr. Taylor. The second one, again, because the five-minute 
rule. I am sorry, my eyes are terrible. Mr. Canter--Kunder? 
Kunder, I am sorry. Mr. Kunder, what I would like to know--and 
again, I appreciate you trying to build roads in Afghanistan.
    But based on what I have seen around the road, my 
frustration is, and I think the typical American's frustration 
is, we think we are doing good things for the little guy in 
these countries, only to find out that time and time again the 
big recipient of the money is Halliburton, KBR, Bechtel, 
DynCorp, or someone like them.
    So for the record, I would like to know, how much money are 
we spending with those four contractors or their subsidiaries 
in Afghanistan?
    Mr. Kunder. Sir, could you please repeat them again. I 
heard Halliburton, DynCorp?
    Mr. Taylor. KBR and Bechtel. And again, I don't expect you 
to know this off the top of your head. But for the record, I 
would like that answer.
    Mr. Kunder. I will be glad to provide that information. I 
do not know it off the top of my head. Three of those companies 
USAID is not contracting with.
    The only thing that I would add, sir, is that I know USAID 
doesn't often testify before the House Armed Services 
Committee. But we have, in terms of our own American citizens 
running the U.S. foreign aid program around the world, about a 
re-enforced battalion, we have 2,100 employees, about 1,100 of 
whom are foreign service officers who deploy overseas.
    And obviously, we don't just go to the conflict--we don't 
have a lot of folks in the conflict zones like Afghanistan and 
Iraq. We are also trying to go to the places where we hope we 
don't have to send U.S. troops, Indonesia and places like that, 
Nigeria, Colombia, and so forth.
    We rely on American contractors as our arms and legs, not 
just contractors, but nongovernment organizations, Save the 
Children, CARE, World Vision, and so forth. So the mechanism of 
using American contractors or American non-government 
organizations (NGOs) to get out on the ground and help immunize 
children or build schools is the way we put some arms and legs 
to the U.S. foreign aid program.
    So I will be glad to get those numbers to you. But it is 
not that the money is going to them, sir. It is just that is 
how we do business because we only have 1,100 employees.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Mr. Taylor. I appreciate you saying that. I also doubt that 
any of these people are in the business of charity based on the 
pathetic work at least one of those contractors did in south 
Mississippi in the wake of Hurricane Katrina.
    Ms. Tandy, would you--we will start with you.
    Ms. Tandy. In response to your question, we have no 
information that President Karzai has received funding support 
income from the drug trade in Afghanistan to be----
    Mr. Taylor. His family or his administration?
    Ms. Tandy. That is correct.
    Mr. Taylor. Don't know?
    Ms. Tandy. To be sure, with a drug trade of this 
proportion, corruption follows that drug trade no matter what 
country it is in. And that is certainly true in Afghanistan. It 
is pervasive through the government, through the provincial 
governors and through other sectors in that country.
    That is an obstacle that we deal with and deal effectively 
in the narrow sphere that we are operating there through what 
is essentially a vetted unit that we are working with that has 
been investigated, and we know are not corrupt because of the 
background that we have done on them and the daily work that we 
do with them.
    So I also would like to respond to some of the comments 
that you made.
    I am the author of my written testimony and my oral remarks 
this morning. Both of them accurately depict the 
counternarcotics frustrations, the obstacles, and the reason 
for hope in the future. I have never described the delivery of 
eight MI-18 helicopters as a silver bullet. But the DEA and the 
National Interdiction Unit have functioned quite well with some 
great and measurable success over the past year with very 
limited air mobility.
    We have been confined to parts of Afghanistan as a result 
of that lack of air mobility that would have otherwise been 
daunting to anyone trying to deal with counternarcotics in that 
country.
    Yet, we have achieved substantial success, not just in 
interdictions, although there is that. Not just in taking down 
hundreds of clandestine labs, although there is that. Not just 
in the first U.S. extradition and not just in the actual 
prosecutions, convictions and sentencing of narcotics 
traffickers who are significant in Afghanistan, although there 
is all of that.
    And for DEA on the ground, we see a great deal of expanded 
opportunity with the support that we have been given by DOD 
with these helicopters along with the rest of the support that 
DOD has been and continues to provide us.
    So if you detect optimism in my opening statement, that is 
accurate. We are looking at the way ahead. And we do see and 
sense that optimism from not just the delivery of helicopters 
but from the capacity-building that DEA has undertaken the 
leadership of with our future counterparts in Afghanistan and 
with the justice and policing systems that are now in place.
    When we started a year ago, Mr. Taylor, we created this 
National Interdiction Unit of about 125 Afghans, some of whom 
did not have shoes. All of them had to be taught to tie their 
shoelaces when they got shoes. All of them had to be taught how 
to do a jumping jack.
    We have started from that a year ago. So we have a great 
deal of reason to be optimistic about the future with our 
counternarcotics counterparts and the efforts that we are 
pursuing in Afghanistan.
    Thank you.
    Mr. Saxton [presiding]. Thank you. Thank the gentleman from 
Mississippi.
    The gentleman from----
    Mr. Taylor. Wait. Mr. Chairman. Just for the heck of it--
because I intentionally missed the vote to ask that question.
    General, to the point of, if we crack down on drugs, would 
the warlords turn on us? And then, would you suddenly have a 
whole heck of a lot more enemies to be fighting? I mean, I 
would like your opinion on that.
    General Eikenberry. Sir, the efforts to eradicate drugs in 
Afghanistan, of course, there is a balance that has to be 
maintained there.
    And the threat that could come from a campaign in which--
the efforts were being made in which the alternatives were not 
being given to farmers to have some other kind of livelihood 
that could be disrupted.
    So I think that as the international community and the 
government of Afghanistan, they look at efforts of 
eradication--as there was a fairly comprehensive effort that 
was conducted this year in Helmand. It had challenges. But it 
was the largest scale effort taken to date. That was very much 
kept in mind. And there was some good lessons learned there.
    But truly, yes, there is a balance.
    You know, in terms of trying to provide the farmers of 
Afghanistan, the people of Afghanistan alternatives to poppy 
growing, there has to be a sustained effort to accomplish that.
    You know, for instance, if you are down in Helmand province 
in southern Afghanistan. And you are told not to grow poppy and 
here is a bag of wheat to plant in lieu of. Well, the question 
of the farmer might be where is the good irrigation system so I 
have got some water now for my field.
    And if you provide him with an irrigation system, then the 
next question might be where is the road that allows me to take 
this wheat to market.
    So it is complicated. Congressman, as you said, there is no 
silver bullet up there that is out there. It has to be a very 
broad-based approach. And I think that is what the 
international community, the United States and the Afghans are 
trying to deliver right now.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Saxton. Thank you.
    We are going to move now to the gentleman from New York, 
Mr. McHugh.
    Mr. McHugh. Thank you very much, Mr. Chairman.
    Let's see if we can get off a few of these here.
    General, you mentioned in your written testimony, you spoke 
to it as well, the current end-strength of the police and army. 
You combined that figure at 66,000.
    What is the goal? What are you shooting for for an end-
strength to both of those?
    General Eikenberry. Congressman, for the army, the current 
goal is 50,000.
    However, we would like to look with the government of 
Afghanistan at a point next year to see if that number should 
go on and be built up to a figure of 70,000. Seventy thousand 
was the figure that, in 2002, that the international community, 
the United States and the government of Afghanistan, in talking 
about the army, agreed to an army at that point not to exceed 
70,000.
    So set the build up to 50,000. We will take a look early 
next year to see if we should keep moving forward.
    With regard to the police, the target right now is 62,000, 
sir.
    Mr. McHugh. Thank you.
    You heard Mr. Taylor's comments about the size of 
Afghanistan. I have had the opportunity to go there a couple of 
times. I didn't see much of it. But even what I saw was a lot, 
geographically.
    I understand there were probably some small political 
considerations driving those numbers. But is that an even 
remotely reasonable figure to do what needs to be done, in 
terms of providing security in some reachable places? It may 
not be possible certainly everywhere.
    General Eikenberry. Sir, we look with our Afghan partners 
at those numbers on a recurring basis.
    Of course, what is not important ultimately is the numbers 
of the army. It is not the numbers of the police. It is what 
effects are they delivering.
    As I had said earlier, Congressman, for instance, right 
now, if you were to ask me the question would it be more 
important to have a U.S. infantry battalion of 600 on the 
ground or $50 million for roads, we could deliver more security 
with $50 million of additional roads being put in.
    So it is the overall context of the governance, the 
security forces and the economy that come together. And if you 
have an improvement in governance and an improvement in the 
economic livelihood of the people, that does deliver security.
    Now, with that in mind, with regard to the army, I don't 
know. As I said, as we look next year at what should be the 
ultimate size of the army, more important the numbers there for 
the effect the army delivers will be perhaps more mobility, 
more helicopter forces of their own, more firepower of their 
own.
    With regard to the police, the number of 62,000, I think 
that could be a reasonable number. The police program right now 
is a bit behind that, of the delivery of the army program. The 
police program, a real comprehensive approach, did not begin 
until really last fall. And we are starting to see effects 
delivered.
    But I am optimistic that that police force, when it is 
fully manned and equipped, which should be the late 2007-2008 
period, that that will be transformational in terms of the 
security within the Afghan countryside.
    Mr. McHugh. Thank you, sir.
    Secretary Tandy, you mentioned in your written testimony 
about the drug flow patterns out of Afghanistan. You mentioned 
a number of different routes.
    Assess for me the efforts in the cooperation, if any, of 
the Tajik government, also the Russian government, kind of two 
major destination points, if you will, of the product being 
grown in Afghanistan.
    Ms. Tandy. First of all, with regard to the trafficking 
routes from Afghanistan, we have seen changes since 2004. We 
have seen a commensurate 15 percent drop in the movement of 
drugs from Pakistan and a 15 percent increase in the route 
through Central Asia to the north. Part of that is, we believe, 
due to the expanding Russian market and use of drugs.
    The border enforcement in Tajikistan has been an issue with 
the Russians phasing out of their presence on the border and 
enforcement activities of the Tajiks on the border, and other 
issues with Russian organized crime, along with Tajikistan 
organized crime. So that would be a draw for additional 
movement of drugs through Tajikistan.
    What DEA is doing is establishing an office and presence in 
Dushanbe and actually working with the border patrol and our 
law enforcement counterparts in Tajikistan in the way that we 
do around the world, which is through secure sharing of 
intelligence and shared targeting of the organizations that are 
responsible for the great deal of the smuggling across that 
border, with the opium and heroin going out of Afghanistan and 
chemicals coming into Afghanistan.
    Mr. Saxton. I thank the gentleman----
    Mr. McHugh. Thank you, Mr. Chairman.
    Mr. Saxton. I thank the gentleman from New York.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Kunder, as far as I am concerned, roads, roads, more 
roads, and I appreciate your emphasizing that.
    The only thing I would say is, once you build a new road, 
there is nothing worse than having a wonderful new road, and 
the first year out realize it is covered with potholes. It is 
bad for morale. So I hope that we are building in some funding 
for you all to help keep those things maintained.
    But roads, roads and more roads I think is a big key for 
Afghanistan.
    Ms. Tandy, in your opening statement, you made mention of 
your 11,000 DEA employees. My experience with them is that you 
have a lot to be proud of amongst your 11,000 employees. As we 
are sitting here today, how many of those 11,000 employees of 
which you spoke, not contractors, are in Afghanistan right now?
    Ms. Tandy. The actual numbers--I understand we will have a 
closed session following this. And I would like to give you the 
actual numbers of DEA's presence in that session.
    I think it is public record of what the FAST team 
complement consists of. And for the FAST teams, each of the 
five task----
    Dr. Snyder. So the number of DEA employees in Afghanistan 
or wherever they are in the country is classified information? 
Or are you just choosing not to describe it here at this public 
session? Is that a classified number?
    Ms. Tandy. It is sensitive information given----
    Dr. Snyder. All right. Thank you. Thank you.
    Ms. Tandy [continuing]. The violence on the ground. I am 
happy to provide that information to you.
    Dr. Snyder. Well, General Eikenberry, I am a big fan of 
yours. And I appreciate the work you do in Afghanistan. I think 
you don't think we are doing enough to help you with what you 
are doing.
    Mr. Chairman, if I might, General McCaffrey's trip report, 
dated June 3, 2006, from his trip to Afghanistan and Pakistan, 
May 19 through 26 of this year, I would ask unanimous consent 
that it be inserted in the record.
    Mr. Saxton. We can do that, without objection. Thank you.
    [The information referred to can be found in the Appendix 
on page 89.]
    Dr. Snyder. And as quickly as I can read, General 
Eikenberry, I want to read parts of it to you. And he has a lot 
of positive things about what is going on in Afghanistan. But 
this is looking ahead to where we need to go because we all 
want to have this thing get better.
    He says--this is General McCaffrey--``In my view, there is 
little question the level of fighting has intensified rapidly 
in the past year. Three years ago the Taliban operated in 
squad-sized units. Last year, they operated in company-sized 
units of 100-plus men. This year, the Taliban are operating 
battalion-sized units of 400-plus men.
    ``They now have excellent weapons, new IED technology, 
commercial communications gear and new field equipment. They 
are employing suicide bombers who are clearly not just 
foreigners. In many cases, they appear to have received 
excellent tactical camouflage and marksmanship training. They 
are very aggressive and smart in their tactics. Their base 
areas in Pakistan are secure. Drug money and international 
financial support has energized their operations.''
    And anyway, that is part of his statement.
    Then, with regard to the Afghan National Army, he has very 
positive things about their aggressiveness, their discipline, 
the training that you all have done.
    But then, this is the part that I wanted to read because it 
involves us and where, I think, we are failing you: ``The 
Afghan army is miserably under-resourced.'' Again, this is 
General McCaffrey. ``The Afghan army is miserably under-
resourced. This is now a major morale forecaster for their 
soldiers. They have shoddy small arms, described by Minister of 
Defense Wardak as much worse than he had as a mujahedeen 
fighting the Soviets 20 years ago.
    ``Afghan field commanders told me they tried to seize 
weapons from the Taliban, who they believe are much better 
armed. The Afghan National Army reported AK-47s in such poor 
maintenance condition that rounds spin in the ground at 100 
meters.
    ``Many soldiers and police have little ammunition, few 
magazines. The ANA units do not have mortars, few machine guns, 
no MT-19 grenade machine guns and no artillery. They have 
almost no helicopter or fixed-wing transport, or attack 
aviation now or planned.
    ``They have no body armor or blast glasses. They have no 
Kevlar helmets. They have no up-armored Humvees or light-
armored tracked vehicles like the M113A3 with machine gun 
copulas and with slat armor. They need light-armored wheeled 
vehicles.
    ``There seem to be neither U.S. resources''--again, this is 
General McCaffrey's opinion. ``There seem to be neither U.S. 
resources nor political will to equip these ANA battalions to 
rapidly replace us as the first line counter-insurgency force.
    ``I strongly suggest that this army and police force should 
be 70,000 to 100,000 troops within 18 months, not an anemic 
force of 50,000 soldiers. We should fund this effort at $1.2 
billion annually. And sustain it for ten years.''
    That was billion--$1.2 billion.
    ``The force should be expanded to include 15 or more armed 
engineer battalions and medical battalions to work on the road, 
water, micropower''--parentheses, six percent of the country 
has electricity--``medical and security infrastructure 
requirements.
    ``This situation cries out for remedy. A well-equipped, 
disciplined, multi-ethnic, literate and trained Afghan National 
Army is our ticket to be fully out of the country in the year 
2020.''
    And that is the end of the quote. That is General 
McCaffrey's.
    Now, I have listened to the statements. And I had to keep 
myself--and I know these statements have to go through Office 
of Management and Budget (OMB)--but I had to keep myself from 
humming ``Everything is Coming up Roses,'' as some of these 
statements were read here today.
    This is a different description.
    Now, we have been in Afghanistan longer than we were in 
World War II. In World War II, in 3 1/2 years, we created 100 
aircraft carriers, tens of thousands of planes, hundreds of 
thousands of vehicles.
    And yet, we are asking our allies, the Afghan National 
Army, to creep along with equipment they are having to steal 
from the Taliban.
    What do we need to help you, General Eikenberry?
    General Eikenberry. Congressman, thank you.
    I know General McCaffrey very well. And he said this--in my 
current command, this is the second time that he has visited 
us. And both of his visits were very helpful. And they provided 
a lot of insights for us. And I have read his report very 
carefully, which he sent to me when he concluded his trip to 
Afghanistan.
    Sir, a couple points I would make about the Afghan national 
security forces.
    First of all, the police, as I said, the police program is, 
let's say, behind relative to that of the army. Although, right 
now, we are in a very robust equipping of the police forces. 
There is pay and rank reform that is going on. So the police 
force, I think, will see that start to take to the field in a 
more robust way here in the latter part of this year and then 
through 2007 and 2008.
    You were talking about the army. I had the honor of serving 
in Afghanistan in 2002, 2003, where my main charter at that 
time as a major general was the building of the Afghan National 
Army.
    Sir, it is important to remember the context here and to go 
back in time. In 2002, there was nothing there. There was no 
Afghan National Army. There was a dysfunctional Ministry of 
Defense. It was really grains of sand that we were building 
from.
    Part of the challenge, of course, in trying to build what 
would be a values-based army, must be a values-based army that 
is founded upon discipline, respect for the rule of law, 
respect for the people, is leadership.
    The leadership development of the Afghan National Army has 
been slow. And it couldn't be any other way when we look back 
over the 30 years of chaos. Two generations of people without 
education, 20 percent literacy rates within that country. So 
the development of leadership has been a slow process.
    If you were to ask me in 2002, should this army get up-
armored Humvees, for instance, should they get more 
sophisticated weapons? My answer at that time, and still today 
looking back, was correctly no, they should not. Because, 
Congressman, they would not have been able to maintain it.
    We have reached a point here in 2006 where this army is 
becoming resilient. It has a good ministry of defense. Minister 
Wardak is a great minister of defense. It has a good general 
staff. We are starting to build the whole army right now, in 
terms of what we call sustaining institutions: not just 
riflemen on the ground but maintenance facilities and 
maintenance organizations that can maintain equipment behind 
those soldiers, personnel systems, military justice systems. 
This force, at this point in time, has become a much more 
resilient force than it was in 2002. They believe in 
themselves. They are fighting well side by side with us.
    I would say with regard to the critique of equipment that, 
Congressman, it is not NATO-U.S.-standard equipment, but the 
Afghan army fighting side by side with us, we will not have 
combat formations of the Afghan National Army that are fighting 
side by side with us with broken weapons.
    The Afghan National Army, the AK-47s, its equipment that it 
has, as I said, it is not 21st-century technology, but it is 
functional equipment. And we make sure of that.
    There are challenges in terms of the distribution of 
ammunition. There are challenges within some units of 
maintenance. But we are after that.
    To get to your point though, to the future of the Afghan 
National Army, Congressman, I do believe that it is now time, 
based upon the performance of this Afghan National Army, the 
resilience they have, their capability now of taking on higher 
levels of equipment and maybe most importantly the evolution of 
the threat, which is a different threat than the army faced in 
2002, it is indeed time to look at improving the equipment, the 
mobility of this Afghan National Army.
    We have taken some steps. For instance, we are already in 
the process of procuring and delivering new improved Kevlar 
helmets, the individual body armor, which you mentioned, what 
General McCaffrey addressed. We are in the process right now of 
getting protected Humvees and purchasing those for some of the 
commando units of the Afghan National Army.
    But my sense is that we are going to have to look now very 
carefully at more important upgrades and more comprehensive 
upgrades of this force, mobility, fire power, other 
enhancements. They can maintain it at this point. They can 
effectively use it.
    But here I would say that it should not just be a U.S. 
effort. With the NATO ISAF expansion that is occurring, the 
NATO expansion of the mission in Afghanistan, I think that we 
should be looking to our NATO colleagues and our NATO allies, 
that is, to stand up and also help us out with this equipping 
of a more higher level for the Afghan National Army.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, General.
    My time is up. But, you know, four and a half years you say 
it is time to start looking at this. I mean, I know that 
Chairman Hunter will be very supportive of any information you 
can give us where the Congress can help you supply these folks 
you are training.
    Well, we can't help you if we don't know what is going on. 
And, man, it was tough reading these written statements to 
figure out where the problems are today. Thank you.
    The Chairman [presiding]. I thank the gentleman.
    Mr. Skelton. I appreciate that--Mr. Chairman.
    The Chairman. The gentleman from Missouri had a brief point 
to make.
    Mr. Skelton. I----
    The Chairman. But let me just announce we have got a 15-
minute vote, I think, a motion to adjourn. My intent is to keep 
the hearing going. So the folks leave, your position will be 
honored when you come back. And it will be Mr. Skelton for a 
brief point. And then, the gentleman from Michigan, Mr. 
Schwarz.
    Mr. Skelton. In answering Dr. Snyder's question, may I 
suggest in either a classified or unclassified manner after 
some consideration and thought on your behalf, would you be 
kind enough to recommend to us what you need in so far as 
assisting the Afghan army, whether it should come from us, 
whether it should come from NATO or whatever the case may be.
    I think it will be very, very helpful because that is the 
way this committee works. We look at things that are necessary.
    And if you would do that within the foreseeable future, I 
think that would be a bit better answer for Dr. Snyder as well 
as the entire committee.
    Thank you.
    General Eikenberry. Yes, sir. I would be happy to do that 
if you wish during the closed session, sir.
    The Chairman. Yes, that would be good.
    The gentleman from Michigan, Dr. Schwarz.
    Dr. Schwarz. Mr. Kunder, we spoke before the hearing a 
little bit about the lack of public health facility, any sort 
of public health infrastructure in Afghanistan. People who have 
been in Afghanistan and people who are in Afghanistan now have 
come in to speak to me, as a physician Member of Congress, much 
like Dr. Snyder, about the fact that infrastructure doesn't 
exist.
    And this is a place where I believe that the Congress 
should be aware. And the Congress should be instructed by 
people like yourselves and the folks that you have in 
Afghanistan, that General Eikenberry has in Afghanistan, about 
what we need to do in regard to setting up some sort of public 
health infrastructure.
    Because literally it doesn't exist, whether it is 
immunizations, whether it is prenatal and peri-natal and post-
natal care both for infants and mothers. The maternal mortality 
rate is the highest in the world, as you know, somewhere in the 
15 percent to 20 percent range. That is maternal mortality 
rate. So, yes, I know it is a terribly difficult environment. 
The farther away from Kabul you get, the more difficult it is.
    But could you just, kind of, free associate on this issue 
for me, perhaps General Eikenberry as well, and let us know 
what you think we could do? What we need to do to establish 
some sort of--I don't want to say health care system because it 
won't be that sophisticated--but some sort of public health 
structure in Afghanistan?
    Mr. Kunder. Thank you, sir.
    We measure maternal mortality in terms of hundred thousands 
of live births. Our data indicates that the rate of maternal 
mortality is about 1,600 per 100,000 live births. Given the 
fact that the average Afghan woman has more than six children 
over her life time, simple math would indicate you have about a 
one in ten chance of the mother dying during childbirth in 
Afghanistan. So the numbers might be a little bit different. 
But it is an astonishing high number, the worse in the world by 
far. So we take the issue quite seriously.
    And I appreciate your asking the question the way you did. 
Because it is a question of building a system. We are working 
with the Ministry of Public Health so that they can start 
taking care of some of their own problems. As General 
Eikenberry said earlier, we have got some very highly qualified 
and trained people within the Afghan government, just not 
enough of them.
    Dr. Schwarz. We are talking about the diseases of antiquity 
here.
    Mr. Kunder. Yes.
    Dr. Schwarz. It is unbelievable. So I am most interested to 
hear what you have to say.
    Mr. Kunder. And of course, improved living conditions is 
directly related to security and reconstructing this country 
and ending the insurgent threat in the countryside. So we take 
this very, very seriously.
    We are trying to do two things to provide some kind of 
immediate relief.
    First is we are trying to train birth attendants, midwives, 
if you will. Since the U.S. forces first arrived, since the 
U.S. Government reestablished its embassy there, the number of 
births in Afghanistan attended by trained midwives has doubled, 
but only up to about 25 percent. So in the mostly isolated 
rural areas, this is still--you know, in the home birth 
situation with perhaps a neighbor or family member attending.
    The second thing we have been trying to do is--our goal is 
to establish at least a basic health clinic within two hours' 
walk of each village. Now, we are not there yet. We have built 
hundreds of such centers. Of course, the road construction is 
critical. Because if you have got the road infrastructure, 
someone can hire a taxi and if it is a complicated birth, get 
the woman to at least a regional health-care facility.
    So we are moving forward. I mean, as Dr. Snyder said, this 
is a difficult question to ask folks like myself because this 
is an Administration budget request. And we realize there are 
many competing priorities, including in our country with 
Hurricane Katrina and so forth.
    If you ask my staff in the field, or I think General 
Eikenberry, or any of our staff, can you use more money? You 
know, our folks are very dedicated. The answer is always going 
to be yes, we can use a lot more money.
    Part of the answer is to get other international donors, 
like the U.N. agencies like United Nations Children's Fund 
(UNICEF), some of the other bilateral donors, engage the World 
Bank, engage so that the U.S. taxpayers are not paying it all.
    And part of the answer, as I said earlier in my testimony, 
is to raise Afghan government revenues so it is not just 
dependent on handouts internationally.
    But to answer your basic questions, there is a lot more 
that can be done. These are desperate numbers in terms of human 
suffering. And they aren't going to be turned around at our 
current resource levels any where in the near future.
    General Eikenberry. And, Congressman, if I could----
    Dr. Schwarz. If you please, General.
    General Eikenberry. I would make two points on the health 
care. And this goes back to Congressman Snyder and talking 
about roads and roads. You know, last year, I was driving in 
the Panjshir Valley of Afghanistan about, oh, 75 miles 
northeast of Kabul, and riding down this narrow valley road, 
which runs through the center of the province, a road 
completely beat up. We were with a four-wheel drive.
    And I was with the chief of the general staff of the Afghan 
army, General Bismullah Khan, who hails from that province. We 
stopped and saw a young boy walking by who the general 
recognized. And I got out with my interpreter and asked him 
where he was going. And he said, ``I am walking to school.'' 
And I said, ``How far is that?'' And he pointed and said, 
``About two hours in that direction.''
    We got into a good discussion with General Bismullah Khan 
about the importance of the infrastructure. Then, two hours, 
two hours back, four hours for school, how hard for the 
pregnant woman then to get to the clinic when she needs to be 
there.
    So the amount of effort that we have got to put into the 
infrastructure right now, it is the backbone I think for the 
social services for Afghanistan, which I see as vital to 
improving security.
    Congressman, the other thing I would say on the health-care 
side is that, as we talked about the weapons of the Afghan 
National Army, I would say that behind those most visible 
manifestations of the Afghan National Army, there are a lot of 
great things that are going on for this army in terms of 
building what we can the sustaining institutions.
    Health care is a primary example. The Afghan National Army 
hospital in Kabul is the best hospital that the Afghans have. 
And there are regional hospitals that are being built.
    And from those points of excellence, I think that we will 
see a transfer of those skills and that excellence to the 
civilian sector as well.
    Dr. Schwarz. Thank you. My time has expired. And I do look 
forward to discussing this with you at greater length. I think 
this is some place we can really help. Thank you very much.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you all for 
being before us today.
    Obviously, I am one of those people who voted to go into 
Afghanistan. And I am very interested to make sure that we do 
the right thing there and stand by those people and get that 
country up and going.
    The last time I was in Afghanistan, I had the chance to 
talk to President Karzai. And I read to him a paragraph out of 
a Newsweek article that basically said that he is the mayor of 
Kabul and that basically it doesn't get to go around the 
country and he--because we don't have control of the rest of 
the country.
    And in reading a lot of the reports recently about the 
insurgency and the warlords coming back and the individual 
militias and everything, it has become even more apparent that 
we don't have much control of the rest of that nation.
    My question is, you know, we have put a lot of stake in 
this with respect to President Karzai. And there are recent 
reports, The Washington Post on June 26th talked about this 
leader losing support, for example. And, you know, it talks 
about his asking for more help to build his nation's security 
forces, that he is not getting enough from the allies.
    So I have several questions. The first question is, is 
Karzai getting around? Or is he really stuck in the capital 
right now? How is the general mood out there with respect to 
his leadership? Because it is not the only article. There have 
been several articles about his losing--you know, people being 
disillusioned and now turning maybe back to the warlords or, in 
particular, maybe to the Taliban.
    The second question I have, another article from the Post 
said late last night a riot in Kabul, which protesters attacked 
foreign facilities for hours, as police vanished from the 
streets. And it raises concerns among many people here that the 
government is too weak to protect even the capital.
    Can you talk about--I think Mr. Snyder brought up something 
that was very important, that is the outfitting and making sure 
the people have the right equipment. But this is the first 
instance that I have heard of the security forces that were 
helping to train sort of moving out of the way and really not 
going into battle, if you will. And can you comment on that?
    And last, about two months ago, I was in Brussels. And I 
was speaking to NATO Commander Jim Jones. And he was telling me 
that actually our military was doing a great job in Afghanistan 
and listing one thing after another of what we had done 
correctly. And he seemed to indicate that other pieces of the 
NATO forces there, people who were supposed to be taking care 
of the poppy situation, institution building, he rattled off 
probably about six different things. I am sure you have heard 
him talk about it.
    And he said, you know, and two or three are doing well, in 
particular, with our military. But there doesn't seem to be any 
progress made or we are moving backwards in respect to the 
whole issue of drugs, the whole issues or institution building. 
Can you comment on that? And I would like to hear across the 
spectrum on these three questions.
    General Eikenberry. Congresswoman, the first question you 
had was with regard to President Karzai and does he travel in 
Afghanistan. Yes, he does travel in Afghanistan. He is out 
every several weeks. Just last week, he made a very good trip 
up to Pol-e Khormi, north of the Hindu Kush, to one of the 
provinces up there.
    Indeed, in some instances, the U.S. coalition and NATO ISAF 
do help for making arrangements for those moves. Because there 
is a lot of--although, increasingly, the Afghan army and their 
own forces are taking the lead there.
    Second, you had mentioned the Afghan national police and 
their performance during the Kabul riots. I would say that the 
national army performed brilliantly during those riots. There 
were indeed problems with the performance of the police. 
Congresswoman, I had noted earlier that the reform of the 
Afghan national police program is somewhat behind that of the 
army. But it is under way right now.
    Ms. Sanchez. I did notice that you said that. And I wanted 
to ask you, what does that mean? And what does it look for?
    And I am worried that really the only police we really 
currently are trying to stand up would be in the capital. I 
mean, considering the insurgency going on in other places, I 
would assume we are using troops versus civil police, for 
example.
    General Eikenberry. No, there is actually, Congresswoman, 
there is a very robust program that is throughout the entire 
country of Afghanistan. When I say the police program is 
behind, the program was initiated, the reform of the police, or 
the training of the police, was initiated back in 2002. It was 
a very heavily training focus. But it was last year, last fall 
of 2005, that there was a comprehensive program that was put 
together and very much the United States government involved in 
that program.
    And that is a program that has pay and rank reform for the 
police forces, beginning at the very top in this reform 
process, now working its way down through the ranks. Critical 
piece, because leadership is essential.
    I talked about a values-based organization being the army, 
the police, exactly the same. In the end of the day, it is 
about values for the police force, their discipline, their 
loyalty to the state.
    And so there is a good reform program beginning right now 
where leaders, beginning at the most senior levels, are 
competing for positions, being vetted and working its way down 
through the ranks. There is pay reform, as I had said, rank 
reform. There is a comprehensive equipping program that is 
under way. There is the delivery of communications equipment. 
There is the delivery of vehicles.
    Very importantly, there is a very robust mentoring program 
for this police force. But there is regional training centers 
found through the country of Afghanistan. And police forces are 
being delivered throughout all the major regions. So it goes 
far beyond Kabul. Not, at the same time though, this program 
will take 6 months, 12 months, 18 months to deliver more 
effective reforms down through the ranks.
    I think that what the Ministry of the Interior experienced 
during the Kabul police riots, it is fair to say that they have 
identified some very significant shortcomings in terms of the 
communications systems, in terms of the reliability of the 
force. But they are working very hard on that. We are providing 
them with support. I am optimistic over the coming year that 
those problems will be addressed.
    The final question you had was with regard to NATO and 
talking to General Jones, who I talk to frequently as this 
transition continues.
    And I think that not talking about what has been 
accomplished or not been accomplished, but talking about what 
NATO ISAF will bring with this expansion of the mission for 
NATO, I think that they are going to be able to deliver a lot 
of--they are going to be very effective in improving this 
security environment and improving reconstruction in the areas 
that they are going into.
    Let me give an example in Helmand province, southern 
Afghanistan. In Helmand province, the United States presence in 
Helmand province was about a 100-person soldier, civil affairs 
team that was there with a provincial reconstruction team. And 
we had about 50 special forces. The British now, the British 
army is moving into Helmand versus our 50 special forces, they 
will have 3,500 British Army. Their provincial reconstruction 
team, I expect, will be delivering about three times the amount 
of reconstruction funds that we were delivering through out own 
provincial reconstruction team.
    So many of the things that General Jones is talking about, 
I think that the NATO ISAF transition, as it brings in more 
presence of international military forces, more capability of 
training with the Afghani National Security Forces, the army 
and the police, more reconstruction funds, will be exactly what 
is needed for us now to continue to advance the progress of 
Afghanistan.
    Ms. Long. Great. Congresswoman, I have very little to add 
to what General Eikenberry has said, just two data points for 
you.
    I spoke to a number of Afghan parliamentarians about the 
Kabul riots. And they shared your concern. But one of the 
things that we should note is that President Karzai made some 
changes within the police structure immediately following that 
incident in order to deal with some of the communications and 
other issues. So moving forward, measures have been taken to at 
least hopefully eliminate, if not mitigate some of the issues 
with the police as they performed in that situation.
    Importantly, the parliamentarians that I spoke to thought 
that at least as much of the problem was the result of 
unrealistic expectations and frustrations by the population in 
where the incident took place. And they actually took upon it 
themselves to go back to the constituencies and explain better 
how to react and what exactly happens in those kinds of 
incidences. And I thought that was instructive.
    On the lead nation concept, that perhaps was the 
conversation between General Jones and yourself, as you know, 
the post-bond structure had many good attributes to it, in that 
it assigned nations certain responsibilities. And that occurred 
over a number of years. I think it would be fair say that it 
had very many positive things and did some real good.
    We also noticed that there were some gaps and some 
deficiencies. In January and February, there was a meeting in 
London where the Afghan Compact was constructed. And one of the 
things that happened in that process was to take a look at the 
lead nations and try to figure out what the weaknesses were.
    And one of the weaknesses that was identified was there was 
really no ability to track or monitor how certain nations or 
NGOs or certain progresses being made in sectors. And what they 
came up with was a joint coordination and monitoring board that 
will meet in Kabul and actually includes the Afghans.
    And what the board has been apt to do is sort of oversee, 
monitor and interact with either the countries, the NATO 
members, the multi-laterals, the NGOs that have undertaken 
these responsibilities in order to tweak them as things 
progress, if they aren't progressing in the manner that the 
Afghans need, or to readjust as we go along.
    So progress has been made.
    Ms. Sanchez. And when was that board put in place?
    Ms. Long. It was discussed at the January-February London 
conference for the Afghan Compact. I don't know if the board 
has actually met yet. We can get that information for you.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Ms. Sanchez. Yes. I would appreciate that, because my 
discussion was more recent with General Jones.
    Mr. Kunder. Ms. Sanchez, just very briefly on this question 
of the writ of the Afghan government reaching, undercutting the 
site, I mean, it is a serious problem because the government 
system had broken down during the 23 years of warfare.
    But just very briefly, we recognize this problem. And in 
terms of addressing it, we are building regional government 
centers, regional judicial facilities.
    I mentioned during earlier testimony that the customs 
border post along the Afghan border, which were under the 
control of regional commanders, warlords, at the beginning of 
this government, are now under control of the Afghan government 
and putting revenues into the central treasury.
    At the beginning of the Karzai administration, the 
president couldn't even speak by radio to regional governors. 
We now have a good telecommunications system. And of course, 
the parliament is functioning, which also is part of national 
integration.
    So I would just say that, while there are still profound 
problems because of the breakdown in the physical 
infrastructure and the institutional infrastructure, there are 
a number of efforts going on with U.S. taxpayer support to make 
sure that this government is fully integrated.
    We are not there yet. But a lot of progress has been made.
    Ms. Tandy. Mr. Chairman, I would just add roads, roads, 
roads. I have been there. I think it is definitely a way to 
connect a lot of this country.
    Thank you.
    Mr. Skelton. Mr. Chairman, may I follow through on one of 
the gentlelady's thoughts? Are we still having AWOL problems 
and problems when the army is getting paid and then 
disappearing for a couple of weeks before they come back?
    General Eikenberry. Congressman, the rate of absenteeism 
over the past year has dropped appreciably. We now have an 
absentee rate. On the average it varies from unit to unit 
because it is very leadership-dependent. But in the main, 
Congressman, it is about 10 percent.
    The absentee rate of the Afghan National Army will always 
remain higher than it is within our army, than it is within the 
western armies. There are cultural issues that are there, as 
well as it is going to be many, many more years before we get 
the ATM devices installed. So there is a desire of Afghan 
soldiers to get home and deliver their pay.
    Although we are coming up, working with the ministry of 
defense--we actually have come up with some pretty good systems 
that taken into account the reality of the absence of a 
national banking system. And those rates are going down. But 
really, Congressman, the important factor is, I think, the 
improvement of leadership of the Afghan National Army.
    One other thing point I would make here as well in terms of 
the popularity of service within the Afghan National Army, also 
important two indicators of it. First of all, the retention 
rates. Now that the Afghan national army is a little bit over 
four years old, the three-year enlistment contracts of the 
forces that started to be built in 2002, those are coming to an 
end. The retention rates are about 30-percent-plus. That is 
very impressive.
    Additionally, the recruiting stations for the Afghan 
National Army has got their recruits lined up, not a problem to 
get young men to join the Afghan National Army.
    Back to your point about the rate of absenteeism, come down 
significantly. We would like to see it go lower.
    The Chairman. I thank the gentleman.
    The gentlelady from Virginia, Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    First of all, I am glad that all of you are here. And I am 
very sorry that we have had such a disruptive meeting.
    I have not been to Afghanistan. I have been to Iraq. So 
this is very important to me to hear what is taking place 
there.
    My first question is, what is Pakistan doing? Are they a 
full-fledged partner with us, or does it just sound like they 
are?
    General.
    General Eikenberry. Congresswoman, several points about 
Pakistan. First of all, in the war on terror, Pakistan's army 
has had more casualties over the past year in fighting 
insurgents, in fighting extremists. They have had more 
casualties, more killed in action than our coalition forces or 
the Afghan National Army has had in Afghanistan.
    The second point is the amount of al Qaeda that Pakistan's 
authority, law enforcement and their army has arrested, killed, 
captured over the last several years is the highest of any 
nation.
    We have worked very hard with Pakistan over the last 
several years to improve--when I say ``we'' now, the coalition, 
the Afghan military, ourselves have worked very hard with the 
Pakistan military to improve the amount of tactical 
coordination that we have along the border.
    And the level of cooperation, collaboration that we have in 
the border area where this enemy crosses back and forth, is 
about as good as it has ever been. It has vastly improved over 
the last year.
    We also have much work that we are doing in terms of 
facilitation of the Afghan National Army and the Pakistan army 
to try to increase mutual confidence between the two sides. 
That is more of a long-term effort. Captured by history, 
captured by geography, there is a tremendous amount of mistrust 
between the two sides. We are making progress in that area.
    Having said all of that though, Congresswoman, the fact 
remains that we are up against an enemy that is able to operate 
very effectively on both sides of the border.
    The leadership of these international terrorist groups and 
the Taliban, their associated movements, able to operate on 
both sides of the border, there are areas that they are able to 
stay within and to direct combat operations against ourselves 
and against the Afghan National Army.
    So this is a long-term problem that we are facing.
    We are taking, I think, good measures, as I said, to 
improve the tactical cooperation. But the fact is that the very 
senior leadership of the Taliban remains a very elusive target.
    Mrs. Drake. Mr. Chairman, just to follow up with that, 
because I have heard from some of our special ops guys that, 
when one of the terrorists that they are chasing goes into 
Pakistan, they can't continue to pursue. Is that true or 
untrue?
    General Eikenberry. Congresswoman, we take what means we 
need to for the protection of our forces.
    Mrs. Drake. And just one last question, because on my 
second trip to Iraq, we had the opportunity to really see the 
Iraq security forces. And it was quite a presence. So I wonder 
if it is similar in Afghanistan.
    You probably have different problems. You talked about the 
leadership. But if we are using a similar model that as those 
troops are better equipped and better trained if that will mean 
pulling forces out, similar to what we are doing in Iraq, and 
our plans to reduce troops as we have been doing?
    General Eikenberry. Congresswoman, clearly the delivery of 
well-trained, equipped, and sustainable Afghan national army 
and police forces improves the security environment of 
Afghanistan. And there is a relationship between the 
improvement of their own security forces and not only our 
presence but the presence of NATO.
    What I would say is that we talk about lines of operations 
and military campaigns, over the past several years, for our 
U.S. coalition forces--and I think our NATO partners share 
this--what we would say is our main line of operation in 
Afghanistan for our military forces is the standing up of 
capable, well-respected Afghan National Army and assisting in 
the efforts to stand up a well-training and capable Afghan 
national police.
    Mrs. Drake. Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentlelady.
    The gentlelady from California, Ms. Davis.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you all for being here and for your service.
    And thank you, Mr. Chairman, for holding this hearing 
today. But I am somewhat disappointed. I think it was mentioned 
at the beginning that the last time we focused in this 
intensity in Afghanistan was well over a year ago. And it seems 
to me that, if Afghanistan is our front line on the war against 
terror, that we probably should have been doing this all along.
    And I certainly appreciate the fact that you all are here. 
I have been to Afghanistan on several occasions, with the 
chairman initially and then back. And I look forward to going 
again.
    I do recall that our embassy officials were not able to 
move beyond the embassy. And I am hoping--I don't know--whether 
that situation has changed at all or not. You might be able to 
speak to that in a second.
    I wanted to just take a slightly different tack and just 
particularly, General Eikenberry, we focus so much on the 
Afghan National Army and, yet, there is some concern whether in 
fact we have disproportionately done that and put all of the 
bulk of our funding and, I think, the national army--I 
understand Afghanistan is spending about 90 percent of their 
revenues on the ANA.
    Is that correct? Is that a correct statement?
    General Eikenberry. Congresswoman, I would have to get back 
to you with the exact numbers. But the Afghan state is making 
significant contributions now to the salaries of the Afghan 
National Army. And they are providing for other operation 
costs.
    Ms. Davis of California. I guess my question would be, are 
we doing the same for the police?
    If that is so important and it is so important to people on 
the ground, their sense of security so that Karzai does not 
have to necessarily engage the militias, I think, in being out 
in the countryside as well, where is that balance?
    And do you feel that there have been some problems in 
focusing more on the army and certainly less on the police? Are 
we needing the level or security there that we are actually 
training the army to?
    I just wanted to provide perhaps the devil's advocate on 
that and see if we could have a discussion.
    General Eikenberry. Congresswoman, with regard to how much 
the Afghan government is currently funding the army and the 
police, we will get back and provide you with that information.
    You indicated that you will be visiting Afghanistan soon. 
And I assure you that you will be able to move freely around 
the Kabul area. And however much time that you spend in 
Afghanistan, perhaps a chance to get outside of Kabul and see 
some of the great work that the whole interagency team here, 
the Department of State, USAID, Department of Agriculture and 
your military are doing in a lot of--all over Afghanistan right 
now.
    The police program, the police are critical to success in 
Afghanistan, of course. That is the front line where the 
intersection of the government with its presence and its 
security, that is a point of intersection with the civil 
society that I talked about, the middle ground.
    And so it is critical that the police program be carried 
forward. The program that exists right now is a very 
comprehensive program, as I had indicated earlier. Actually, in 
many ways, it is modeled on the military program. It begins at 
the ministry of the interior at the high policy level and 
command and control level. It takes cognizance of the need to 
develop training institutions, logistics institutions, 
personnel systems.
    And then, very importantly, with regard to the operational 
police forces themselves, there is a very robust program of 
equipping and mentoring.
    Relative to that of the army, that program is behind. I 
wish it was farther along. But the good news is that that 
program is now in full swing and will be delivering results.
    But clearly, you need a good balance of upfront police 
forces at the law enforcement front. And importantly, they 
deliver----
    Ms. Davis of California. Is it a correct statement then to 
say currently that they are under-funded, and the police 
particularly?
    General Eikenberry. Congresswoman, I would say that now 
they are adequately funded. We have a robust program that gets 
into the----
    Ms. Davis of California. Thank you.
    General Eikenberry [continuing]. Pay----
    Ms. Davis of California. Thank you very much.
    I wanted to ask one other quick question. And that was the 
ratio of the military and the PRTs to civilians. And does that 
include civilians that are part of NGOs? Or is it civilians 
that are part of our foreign ops, USAID. What is that ratio 
today? And what is the number or the proportion of people that 
speak Farsi?
    General Eikenberry. We have, I think, a total of 12 
provincial reconstruction teams led by the United States. The 
vast majority of the personnel at those provincial 
reconstruction teams are U.S. military.
    Let's say, on average, that a provincial reconstruction 
team with the security forces, the staff, the military 
leadership, civil affairs teams--let's say that that is about 
60 to 70 military. Within that team, there will generally be 
one Department of State representative. Sometimes there will be 
a Department of Agriculture representative. And in almost all 
cases, there will be a USAID representative----
    Ms. Davis of California. Do you know how many Department of 
State individuals are there working in PRT teams throughout the 
country?
    Mr. Gastright. Congresswoman, I am John Gastright with the 
Department of State.
    There are 23 provincial reconstruction teams in the 
country. We have a State Department provincial reconstruction 
team individual at every one of those, the NATO as well as the 
coalition.
    As far as the number of Farsi, we are actually in the 
process now of developing more Farsi speakers. It is a process 
where you have to have one person in training while one person 
is out in the field. I can get the exact numbers of those in 
the field currently. But the goal is to have them all capable 
of speaking either Farsi or Pashto depending on their location.
    [The information referred to can be found in the Appendix 
beginning on page 101.]
    Ms. Davis of California. Thank you very much.
    My time is up. Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I hope not to replow 
already plowed ground.
    Ms. Tandy, you mentioned that DEA has responsibility for 
drug infrastructure, and the state has responsibility for the 
growers or the poppy eradication. Does that present programs in 
terms of doing an effective job of eradicating the overall drug 
trade out of Afghanistan?
    Do you work well with each other? Should things be 
different or they should stay the same?
    Ms. Tandy. We work very closely with State Department INL, 
the NAF officers in Kabul. The division of labor is not an 
issue in terms of us carrying out our respective expertise. The 
funding for some of our efforts comes through the State 
Department INL. And it is a collaborative relationship.
    Mr. Conaway. So you are satisfied that the eradication of 
the actual poppies themselves, that effort is as strong as it 
needs to be or----
    Ms. Tandy. I would have to defer to the State Department on 
the eradication side since that is not what DEA does.
    Mr. Conaway. I know but----
    Ms. Tandy. But in terms of how eradication could impact 
DEA's operations, I would just say that, to the extent that 
there was prior hostility with some of the eradication efforts 
in the past, DEA could have encountered that in some of our 
missions. We did not. We were not the target of that hostility 
from eradication.
    And I think there are a couple of reasons for that. One is 
people see us very differently from eradicators. We hit the 
ground with us on our National Interdiction Unit teams is 
always a mullah who seeks out the tribal elder on our mission 
deployments and describes to the tribal elder exactly what we 
are doing there.
    And I would quickly add that what we have found on the 
ground is the opposite of hostility. What we have found is that 
the people on the ground are glad to see us there. They are 
glad to see us taking out these trafficking leaders. And we 
have had them applaud us. And then, had them direct us to point 
out other potential targets to us. So the issues that 
eradication have seen, those efforts have seen, are not issues 
that we have seen.
    Mr. Conaway. Okay. But there is not a conflict or the 
efficiencies between the two agencies in terms of a concerted 
effort of eradicating the growing of poppy, which is a cash 
crop--and it is difficult to replace cash crops--versus the 
work that you are doing.
    If you cut off the raw material, then the distribution 
chain dies on its own. So is it working well enough between the 
two agencies like that? Or should they do a better job?
    Maybe the State Department guys need to talk about----
    Mr. Gastright. I would be happy to, sir.
    Mr. Conaway [continuing]. The eradication piece in terms of 
how well you work with DEA.
    Ms. Tandy. I would defer to State.
    But I would just like to add, in closing, that these 
efforts both go hand in hand. And what we are looking at, if 
history tells us anything, is some 10 to 20 years out to 
totally eliminate cultivation. So you are dealing with a need 
for companion enforcement efforts along with the eradication 
efforts for a long term. And that is where we are invested.
    Mr. Gastright. Sir, I would just add that we recognize that 
the key to the counternarcotic strategy is five pillars working 
together.
    There is a public information piece, which is informing the 
Afghan people that poppy is bad. Our data tell us that 92 
percent of the Afghan people don't agree with growing poppy; 
they oppose it. And so that has actually been a very effective 
tool.
    There is the elimination-eradication piece that you 
highlighted. And this year, we had a substantial improvement 
over last year's effort. This is the second year we have been 
operating. We expect to eradicate between 16,000 to 18,000 
hectares. That is about 40,000 acres of opium.
    And there are teams operating in 19 provinces. Some of 
those are central teams. But it was a substantial improvement. 
Still work to do; still ways to improve that effort; and we are 
going to continue to refine it. And again, an increased 
improved effort over the last year.
    The interdiction piece that DEA is doing, a very key piece, 
a law enforcement and judicial reform effort so that we can 
actually prosecute those that the DEA arrests. And we have 
actually built a counternarcotics tribunal to streamline the 
arrest of those figures that are arrested. And then, finally, 
there is the piece that USAID does, alternative livelihoods.
    We recognize that all five pillars of this process are 
absolutely essential. The strategy doesn't work if one of the 
pillars falls off.
    And I would just comment that we recognize DEA's important 
role here. We thought so highly of their people that we stole 
away one their individuals, a gentleman named Doug Wankel. And 
he now heads the interagency effort in Kabul. We think so 
highly of him.
    Mr. Conaway. I am not sure--they reset the clock, but just 
one last quick one.
    How do we protect the fledgling judicial system from 
Colombia-like influences of corruption and intimidation and 
those kinds of things? How are they able to--or are they able 
to protect their new judicial system from undue influence by 
the money that is available in this drug trade?
    Ms. Tandy. I can tell you from the Justice Department's 
perspective, and then I would defer to state. A couple of 
things. First of all, these are hand-selected members of the 
judiciary and the prosecution staff. They have been trained, 
and they are being protected. That protection is essential to 
the justice process there. Part of that protection is being 
provided by the United States Marshals Service to that central 
tribunal of judges and prosecutors.
    The fact that they carried out, in fairly short order, the 
trial and conviction and sentencing within the last six months 
of a key narcotics trafficker and two of his lieutenants is a 
good sign that the system is beginning to work, that the judges 
are not afraid that they are going to be killed in carrying out 
their functions and responsibilities, and likewise for the 
prosecutors.
    Mr. Gastright. Sir, I would just add that, of all of the 
institutions in Afghanistan, probably the least developed and 
the most difficult to develop will be the justice system, 
because there are many contradictions.
    As Administrator Tandy identified, we established a central 
narcotics tribunal and a central narcotics task force 
specifically to address the narcotics issues and the narcotics 
cases that are now being presented and prosecuted.
    The Department of State funds the Justice Department to 
develop a criminal justice task force. They investigate and 
execute narcotics cases. And then the central narcotics 
tribunal, again, we fund their activities. And that system has 
proved very effective.
    Mr. Conaway. Thank you.
    We will go back. General Eikenberry, thank you for coming 
today.
    The Chairman. If the gentleman would yield on that line. I 
know he has asked some pretty extensive questions.
    But with respect to the alternative forms of agriculture, I 
presume that includes the orchards instead of poppies, things 
that give a fairly high yield. Because you can't replace a 
poppy crop on a little postage-stamp piece of land with wheat, 
for example, because you get pennies in the dollar in 
comparison to what is yielded with poppies? But you can, for 
example, put in almonds or other orchard-type agriculture that 
yields a pretty good cash crop if you have a market.
    And are you folks familiar with the--and I take it you 
are--with the orchards transplantation operations taking place 
in Afghanistan. Is that something you are fairly familiar with 
in detail?
    Mr. Kunder. We are, sir. We certainly understand that those 
kinds thing are taking place. Yes, sir.
    The Chairman. Ms. Tandy, are you up to speed on that, and 
Ms. Long?
    Ms. Tandy. In a more general way.
    The Chairman. Okay. Well, I think obviously that is key, 
because people are going to resent losing thousands of dollars 
in cash crop, especially those people who don't have any other 
means of survival and subsistence, if in fact it is not 
replaced with something.
    Now, are you familiar with the Ritchie brothers operation 
there, the----
    Mr. Kunder. Very much so, sir. Yes, sir, we are----
    General Eikenberry [continuing]. Yes, sir.
    The Chairman. I have heard a lot----
    Mr. Kunder. Which we are supporting. Yes, sir.
    The Chairman. I have heard lots of good things about that. 
How is that going?
    Mr. Kunder. It is going well----
    The Chairman. That is I think the almond crops and other 
types of orchards?
    Mr. Kunder. Cotton and some other cash crops.
    What that allows us to do, sir--and you are touching on a 
very critical point, and General Eikenberry alluded to this 
earlier.
    It is just like in our country. I mean, if I go out and 
grow almonds but I don't have agriculture credit at the 
beginning of the season, if I don't have a transport system to 
get my almonds to market, if I don't have a storage facility, 
if I don't have marketing information on export standards and 
so forth, I am not going to be successful.
    I am not going to get to a yield on my almonds commensurate 
with what I am--so that what the Ritchie brothers have been 
able to do, and others, are try to come up with an integrated 
system that looks at both processing and marketing, as well as 
production of the alternative crops.
    The Chairman. So almost like co-op so you----
    Mr. Kunder. All aspects of the marketing cycle have to be 
addressed. Yes, sir.
    The Chairman. How is that working?
    Mr. Kunder. In my crew, cases where we are able to 
concentrate resources, it is working very well. The Afghans are 
a marketing economy and a marketing people. They are quite 
entrepreneurial. But because of the breakdown in the 
infrastructure, the roads and the marketing system, that is 
what we have to overcome systemically.
    The Chairman. Are you working on that?
    Mr. Kunder. Absolutely. That is exactly the priority in 
that we have focused our efforts in those areas that are the 
highest poppy producers to look at integrated solutions to 
getting high-value crops to market. Yes, sir.
    The Chairman. Well, a lot of that boils down to a truck 
that will make it over the road, if you got that.
    Mr. Kunder. It is transport systems----
    The Chairman. These integrated solutions.
    Mr. Kunder. Transports, new markets, it is storage 
facilities. And it is export market standards we worry about.
    The Chairman. Okay. Where is your market at?
    Mr. Kunder. There is some internal market. But obviously, 
for high-value crops, you are looking at export market to 
really get value in the gulf, in western states, in Australia, 
globally.
    The Chairman. Have you got cooperation from the marketed 
states, or from the potential market?
    Mr. Kunder. The Afghans have traditionally transported some 
high-value products. So, yes, sir.
    The Chairman. Well, I understand that. But we all agree the 
Afghans need help, right? So if somebody is going to develop 
these markets for these alternative crops, it is probably going 
to be us. How is that going? Are you conferring with potential 
customer states, if you will? Because most of those states 
probably have quotas and tariffs and barriers to protect their 
own people.
    Mr. Kunder. Yes, so the----
    The Chairman. So it is going to require a government 
accommodation to this. Are we getting that?
    Mr. Kunder. We are, sir. Obviously, we ourselves, our own 
country created duty-free status for Afghan imports. And this 
is the kind of thing we need to discuss with other countries as 
well.
    The Chairman. Okay. How far away would you say we are from 
having a system, a total system, integrated system that will 
allow a guy to change his two or three acres of poppies into 
two or three acres of, say, almonds, and have an income on 
that?
    Mr. Kunder. Sir, I can't overemphasize how critical Mr. 
Gastright's earlier point was that 92 percent of Afghan farmers 
don't grow poppy.
    The Chairman. No, I understand.
    Mr. Kunder. And so we are talking about----
    The Chairman. I was talking about the ones that grow 
poppies.
    Mr. Kunder. We are talking about a small percentage. And in 
many cases, it is because of the topographical conditions or 
the rainfall conditions that pushes them toward the poppy crops 
as opposed to almonds and so forth.
    So there is no silver bullet, as we have said a bunch of 
times. We have all those pieces in place. In some areas, it is 
working quite well.
    But to answer your question directly, we are years away 
from building all of that kind of alternative infrastructure to 
provide viable alternative crops, competitive alternative 
crops, in all the areas where poppies are grown.
    The Chairman. Okay. Let me ask it this way. If you have 
some good, practical ag-types, some farmer types in your shop 
who kind of know what it takes to get a crop to us, get it in 
and get it to market, kind of some can-do, hands-on, 
agricultural folks who could maybe get this going--because as 
you mentioned, it is only a few percent of the Afghan farmers 
who are engaging in poppy growth.
    What that means is you don't have to convert a nation's 
agriculture system. You only have to convert a very small piece 
of it. That ought to be doable, right?
    Mr. Kunder. It is doable. Yes, sir.
    The Chairman. And it shouldn't take a long time. I mean, I 
understand it takes a while to grow trees.
    But if you have a fairly small crop, with all of our allies 
and with the American market available, we ought to be able to 
get a market up. And I suspect probably at this point the 
market is not the long pole in the tent. Because we probably 
don't have enough production right now to really intrude on 
anybody's market.
    But I would just hope that we could move that program with 
efficiency. And I don't know if it is--as you said, it seems to 
be slow in coming. Maybe there are a lot of reasons for that 
that are beyond our ability to accelerate substantially.
    Mr. Kunder. Well, it is. In fact, sir, the poppy 
productions, at least in the eastern part of Afghanistan, is 
done in some of the most isolated areas where road systems have 
never gone into it. As you mentioned correctly, almond trees 
take a while to bring to fruition. We do have some very 
practical hands-on folks who are entrepreneurial, who are 
thinking through these problems. I just want to give you a 
frank honest assessment of the time constraints. We are not 
going to snap our fingers and get it done. But we take it very 
seriously.
    The Chairman. Yes. Well, you usually need kind of some 
practical people to get things like that done. And the 
agriculture community in the United States has got lots of 
practical folks who know how to turn hillsides into farms 
quickly. And they know how to handle the practical problems of 
production and irrigation and fertilization and all of those 
things.
    I mean, American farmers are some of the most creative and 
innovative in the world. And you may need to get a little batch 
of those people, maybe out of the central valley of California 
or Arizona or some of the other orchardous states, and get 
problem-solvers over there. Find out what the long poles and 
the tent are here and get this baby moving.
    Ms. Long. Mr. Chairman, if I might----
    The Chairman. Typically, a lot of the can-do people come 
out of operations. They don't come out of academia.
    Mr. Kunder. We have got a number of partnerships with 
American-ally operatives and so forth. So we would welcome any 
other ideas you have, sir.
    The Chairman. Okay.
    Ms. Long. Excuse me for interrupting.
    I think one of the things we might have been familiar with 
or maybe recalling is that former Deputy Agricultural Secretary 
Jim Mosley, who is one of the better experts that the United 
States has the privilege of working with, volunteered and spent 
some time in Afghanistan. And in fact, may be there now working 
with USAID.
    And I know that one of the things that he may have spoken 
to you about is working with the Afghanistans to develop an 
agricultural extensive service like we developed here. And it 
is the real backbone.
    And I know that there is interest in the department for 
endeavoring to support those kinds of efforts.
    The Chairman. Okay. Well, I appreciate your thoughts on 
that. And I want to apologize to the gentlelady from Guam, Ms. 
Bordallo, for taking all this time, when she has waited for an 
hour and a half here for her question. But the gentlelady from 
Guam is recognized.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And you 
also took my question. [Laughter.]
    I would like to welcome all the witnesses this afternoon 
and been here all morning. I have made a number of trips to 
Afghanistan, as well as my other colleagues. And the question 
that our chairman asked is certainly appropriate.
    We had a long visit with President Karzai. And he was very, 
very enthusiastic about his new program. And how he was going 
to revert all these poppy fields to legitimate farming crops, 
such as the almonds and the flowers and the vegetables and so 
forth. And he was very excited about it. And we left the room 
rather dubious about it. Because, you know, the revenues 
certainly wouldn't be the same for these farmers.
    So I would like to ask you, Ms. Tandy--and I know you may 
defer it someone else--and then also we met with the women 
parliamentarians that had just recently been elected. And they, 
too, were very enthusiastic at wiping out this poppy crop.
    So how is the president involved? And did his reform 
program take effect?
    Ms. Tandy. You are correct. On that piece, I will defer to 
State Department on the eradication side.
    But I, too, have met with President Karzai and had similar 
discussions. And let me just say that I know his commitment is 
real. I am sure he probably talked with you about restoring the 
pomegranate industry to Afghanistan, which he did with me.
    With eradication, as State Department I know will discuss, 
there has been a steep decline in the actual planting in 
Nangarhar where a great deal of DEA's law enforcement efforts 
are focused right now. It drops, I think, 90 percent.
    There were rises in other areas, in southern Afghanistan in 
particular. But I think that does demonstrate that there is 
real commitment. There is success.
    The United Nations Office of Drugs and Crime (UNODC) just 
came out with its annual world drug report and reflected a 21 
percent decline overall in crop planting. What President Karzai 
could not control was the weather, which I am sure you are 
aware, affected the yield. Planting was down. The hectares are 
down. But the yield was greater.
    So there are some competing issues there that I know he is 
contending with and has actually changed to mobile eradication 
units to try to address some of these issues. With that, I will 
defer to the State Department on the remainder.
    Mr. Gastright. Ma'am, as I indicated previously, it is a 
five-pillar strategy. We recognize that no one pillar is the 
silver bullet. They all have to work together, synchronized in 
an effort to address the problem. Last year, we did see that 
the crop was suppressed somewhat. Unfortunately, this year we 
are expecting a slight rebound.
    The strategy is working better. So we will just have to 
stay the course and see that, as the eradication, as the 
interdiction, as the alternative livelihoods all come on, we 
can farmers to move away from poppy and into legitimate 
services.
    I would mention, as far as political will, as Secretary 
Long indicated, the Afghanistan Compact adopted by the 
government of Afghanistan and the international community in 
January of this year, identified counternarcotics as a cross-
cutting theme.
    Addressing that problem is something that the government of 
Afghanistan is committed to. Because they recognize that the 
money from narcotics can swamp everything else that they are 
doing.
    The corruption that is a result of the narcotics trade can 
buy off as many police officers and as many administrators as 
we can produce in an effort to deal with this problem. So they 
recognize that they have to serious about it. And I think that 
their efforts this year are a step in the right direction.
    If I could just go back to markets, the chairman mentioned 
that you have to be thinking about markets in an effort to make 
this a reality. And the secretary of state, who was in 
Afghanistan this morning, certainly has been thinking about 
that.
    Part of that is an initiative she calls the regional 
integration initiative. And the key really is to tie the 
business hub of Central Asia and Kazakhstan to the warm-water 
ports of Pakistan, Karachi and Gwadar.
    We are working with the Asian Development Bank and the 
World Bank and our partners in the region to address three 
things: One, infrastructure, you have got to have a road 
network that goes from those regions all the way to those 
ports. Two, you have got to have the markets, so we are focused 
on that. You have got to have customs fees. You have got to 
have customs systems that allow transiting borders so that all 
of your profit doesn't get sucked up as you cross border after 
border.
    So we are focused on those things. And we think that we do 
have an initiative that has merit.
    The key here is Afghanistan, the land bridge and focusing 
on those roads, roads, roads that General Eikenberry has 
highlighted so many times. It is the key, not only to the rural 
economy and security and counternarcotics and health 
infrastructure, it really is a key to all the things that we 
are doing. So we will keep coming back to that.
    Ms. Bordallo. And one last comment just on this same 
subject. What, in your estimation, currently is a percentage of 
poppy growers in Afghanistan today?
    Mr. Kunder. We estimate eight percent of the farmers are 
engaged in poppy production.
    Ms. Bordallo. Really? I am quite shocked. I thought it 
would be much higher.
    I have one other question, Mr. Chairman.
    The Chairman. Go right ahead.
    Ms. Bordallo. Okay. The interagency coordination and 
operation, such as Operation Enduring Freedom is very vital. 
And today's hearing reflects the reality of modern warfare and 
the need for interagency efforts. Our witnesses today include 
the DOD, the USAID, and the DEA--professionals.
    And this committee has had discussions about expanding 
interagency cooperation. We have talked about establishing a 
new national security university with all executive branches 
involved. We have talked about more exchanges of DOD and other 
agency personnel. We have talked about annexes to war plans 
being required from other executive agencies.
    And let me go on record one more time emphasizing how 
important it is for this Congress and this committee to really 
dig down in this issue. I think it is vital to winning the war 
on terror and all future conflicts.
    Do you believe the interagency and civil-military 
coordination within Operation Enduring Freedom is sufficient as 
the operational and the tactical levels?
    And what are the major lessons learned on interagency 
coordination in Afghanistan? And how are they going to be 
institutionalized? And how can this committee support the 
effort?
    I think the general may be the one to----
    General Eikenberry. The degree of interagency cooperation 
that we have got in Afghanistan, if you compare it to when 
Operation Enduring Freedom-Afghanistan began in late 2001, it 
is just remarkable how far we have come along.
    If you look at provincial reconstruction teams, ma'am, that 
we have spread around Afghanistan, you have combined teams 
there of Department of State; USAID; as I said earlier, in some 
cases, Department of Agriculture; the United States military 
presence there.
    If you consider how we are integrated in Afghanistan with 
regard to fighting the intelligence battle where we have got 
the very close cooperation of all the important agencies, the 
Department of Defense and our military, the CIA, the Federal 
Bureau of Investigation (FBI), the very close coordination that 
we have with the DEA in that regard, and the commendable job 
that they have done, not only in their field, but providing us 
with very important information, which has helped us enormously 
with our force protection.
    In all of those areas, there has been enormous progress.
    And at this point, I think that most of us would say, 
though, that on the ground, none of us are satisfied with where 
we are. We do need to go further.
    And there are aspects that have to do with what you are 
talking about, ma'am, about the training that we can be doing 
before we go into a conflict or even while we are in a 
conflict. And I think increasingly for different departments to 
look at what the requirements are in places.
    I can only speak for Afghanistan and seeing if they can put 
more of that expertise that is required, niche kind of 
expertise, on the ground there.
    Because at the end of the day, there is a military 
dimension to this campaign. But as I said also in my opening 
remarks, increasingly it has to do with non-military aspects 
for us to prevail, the governance, the justice, standing up a 
robust economy in Afghanistan.
    Ms. Bordallo. General, are you satisfied with all the 
information that is being shared? I think this was our problem 
with 9/11 with all these agencies. Is all the information 
above-board and being shared?
    General Eikenberry. Ma'am, I will speak to Afghanistan, 
which is where I am assigned. The intelligence cooperation that 
we have in the sharing of information that we have in 
Afghanistan is extraordinary. And I am very confident with the 
degree of sharing that does take place. It is truly a team 
effort there.
    Ms. Bordallo. Thank you, General.
    Thank you very much, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The gentleman from Kentucky, Mr. Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I want to commend you all on your work on Afghanistan and, 
particularly visiting a provincial reconstruction team down in 
Paktika province last year was quite a positive and eye-opening 
experience.
    You know, we have seen a lot of changes. And I want to 
direct my question a little more strategically rather than 
focusing just on Afghanistan here from a lessons-learned 
perspective. But back when Colonel Brigham and I were second 
lieutenants, the idea of anything to do with joint usually 
meant a uniform code of military justice (UCMJ) procedure 
against a soldier for a narcotics problem.
    But seeing the growth in joint operations, the great 
success of the joint interagency task force (JIATF) in hunting 
terrorists--and one area that we sensed in different parts of 
the area of responsibility (AOR) where we traveled and also 
just speaking to many people across the agencies and in the 
military specifically, is that the agencies still were learning 
in this new era.
    It seems to be a lot of tension not only between the 
agencies but really the direction of where the military needs 
to go long term for the types of 21st-century threats. It seems 
to be an appearance that many of the agencies have, let's say, 
silos of interest that have internal objectives for individuals 
that don't necessarily work for the greater whole.
    And I mean that, especially from the sense of constructive 
criticism as our strategic policy of change, we move more and 
more into an era of short wars and long peace. I think that, in 
a sense, you know, we have had to make it up as we have gone 
along and develop systems and develop processes that never 
existed before.
    And with that, and particularly from General Eikenberry, 
you are unique perspective of having watched this from really 
the very beginning in Afghanistan and then coming back again.
    I would like you all to comment on a long-term perspective 
of how we need to reorganize. The State Department obviously is 
not there from a staff and a structural standpoint to be able 
to reduce uniform presence, deal with fundamental 
infrastructure ranging from banking, democratic policing, basic 
transportation and infrastructure sources, things to help a 
market economy grow. But how do see us organizing for the 
future, for the next conflict like this is will inevitably 
emerge 5 or 10 or 15 years down the road?
    Ms. Long. Thank you for that question. And actually, I 
think the gentlewoman from Guam is going in the right 
direction.
    I think one of the things that we have learned----
    Mr. Davis of Kentucky. Incidentally, we both sat in the 
same meeting and watched people from seven different agencies 
all come up with different answers to the same question. So it 
was common ground there.
    Ms. Long. Oh, and I have no doubts that there will be 
difference among even the panel members or even--I am of two 
different minds depending on what hat I wear, whether it is my 
previously lawyer or deputy assistant secretary of counter-
narcotics hat or whether it is my current hat in ISA, the 
international security affairs office.
    But I think the one thing that we can speak to is a point 
that General Eikenberry hinted at, which is waiting for 
interagency integration cannot wait until we are on the ground 
and in the country. It has to occur well before that.
    And I think the educational and training process to the 
extent possible needs to be integrated much earlier on among 
the agencies not only from a tasking standpoint but from a 
leveraging of resources standpoint.
    Certainly, State Department and the other departments have 
different roles to play. But we need to leverage each of our 
roles in the Global War on Terror. Because they are not just 
kinetic fights. Increasingly, they are finding that there are 
developmental and institutional fights that a kinetic answer is 
not the solution. And the more familiar we become with each 
other's institutions in a training atmosphere and an 
educational atmosphere, the better we will be when we are 
called upon to be on the ground with one another.
    I think one of the things that we have learned, 
particularly with training and equipping, is that our 
traditional stove pipes and, from a resourcing standpoint with 
the Department of Defense, in particularly, aren't 
satisfactorily flexible enough for us to respond to the kind of 
threats that we have now.
    And that a lot of the tasks that one might assume in 
previous years--perhaps World War II was an example--would be 
undertaken by either the populations themselves because they 
were advanced and there was infrastructure available, or 
increasingly falling upon the shoulders of either the United 
States Government or our coalition partners.
    And that we have to have our funding streams and our 
authorities be flexible enough that we can respond and perform 
those tasks not only within the department, but the entire 
interagency and NGOs. One of the things that we have learned in 
the Global War on Terror is it is just not the governments, 
that you require contractors, as my USAID and State Department 
colleagues pointed out.
    And non-governmental organizations that have to follow in 
behind and contribute to the effort, and that the earlier we 
expose ourselves to each other's culture, that we train 
together and educate together, the more successful we will be 
when called upon.
    General Eikenberry. Congressman, I will talk just from the 
military perspective, of course, in answer to your question.
    I think that, if we look at the building of the security 
forces, the army and the police that our military has been 
engaged with, and the Department of Defense has, if we look at, 
first of all, the army, we are reasonably good at that job. 
But----
    Mr. Davis of Kentucky. I would say more than reasonably 
good. What I saw was outstanding but----
    General Eikenberry. The task of building an army though, in 
the case of Afghanistan and indeed in Iraq, was something that 
we had not done before. We are good at building operational 
forces, tactical units and doing the training and the 
equipping.
    But this kind of enterprise that we have got in Afghanistan 
where, as I said earlier, we start with just grains of sand. 
And we have to stand up a ministry of defense and a general 
staff. We have to stand up complex institutions and complex 
structures within this army, military justice systems, 
logistics systems.
    The lessons that I think that we are getting from 
Afghanistan and from Iraq will be very helpful to us in that 
regard. Because we have to think very long term. We have to 
think of terms of having a lot of patience. But it goes far 
beyond just fielding infantry battalions and soldiers.
    Mr. Davis of Kentucky. Maybe if I could redirect this just 
a little bit, no doubt of the quality of the work that you all 
are doing. I mean, for me, my crystallizing moment was watching 
a 20-year-old E-4 explain democratic policing to an Afghan, 
which is certainly a credit to our system and the tremendous 
witness of our soldiers.
    But I feel, in a sense, we are almost in a 21st-century 
version of the Philippine campaign, dealing with scattered 
insurgencies and generally small scattered troops where the 
troops, or whoever else happens to be there, is mainly engaged 
in trying to either create or build infrastructure.
    Introduce ideas, I mean, in Paktika, where they put the 
first road in 5,000 years. I have a couple of counties like 
that in my district. But it was a remarkable exercise.
    And really what I am speaking to, particularly with the 
army, but also from the wider interagency community, is 
adapting in such a way so that, when we go into the next 
situation, when we have that six months that the local populace 
shows the love before they get upset, and have the opportunity 
to build the insurgency, what we can do to have--whether it 
changes within the nature of civil affairs, changes within the 
nature of, let's say, more of a post-conflict, peace-
stabilization type of organization that would go on the ground 
that would have that interagency capability to deal not simply 
with cultural issues, but we look at the gap that we saw in 
Iraq.
    Things got moving in the right direction a lot more quickly 
in Afghanistan. But how we could take that model to apply 
elsewhere.
    If you would say maybe the top two or three things that 
need to be addressed either doctrinally or organizationally?
    General Eikenberry. Maybe in three, Congressman.
    The first one you led with, with regard to the police, the 
model that you have in Afghanistan and Iraq is you have to have 
the capability of building police in an environment in which 
security is not good.
    So that mixing of the civilian police expertise that is 
available through the Department of State with the reality that 
you have got to have protection provided by the military to 
extend those trainers for.
    Indeed, there are certain skills that the military brings 
that would probably have to be imparted within that police 
force for rough places, like Paktika, Congressman, where you 
went to.
    And it is not necessarily the primary policing skill as 
being a good traffic cop. It is being able to defend your 
district headquarters if you are attacked in the middle of the 
night by a Taliban force.
    So how to bring those kinds of capabilities together 
between state and the military.
    The second, with regard to civil affairs, I think we have a 
very strong civil affairs corps in the United States military 
and the United States Army.
    But when we look at some of the challenges again that we 
faced in Afghanistan where it is not only delivering 
humanitarian assistance at the very basic level, that we talk 
about building ministries of commerce, ministries of different 
sorts.
    That kind of civil affairs ability to work throughout the 
entire institution from the very highest down to the cutting 
edge, that kind of skill is something I think that we are 
developing. It needs to be furthered.
    And then, there would be, in the area of linguists, that to 
the extent that we can anticipate conflicts that we may have, 
making sure that we have a battery of linguists that are going 
to be able to serve our United States government well as we 
have to move forward into a campaign.
    Mr. Davis of Kentucky. Great.
    Thank you, Mr. Chair.
    Mr. Kunder. Sir, could I just--the U.S. Government sent me 
to work in Somalia, Bosnia, Afghanistan, Iraq. And I have one 
recurring take away from all this.
    And that is we need to create something like the new 
coordinator for reconstruction and stabilization at the State 
Department where somebody husbands the resources of the 
civilian side of the U.S. Government to link up with the 
military at D-minus-180.
    Because all of the problems we are talking about, whether 
it is linguists or more experts in building governments, you 
can't create those during the 180-day grace period.
    And what we have on the military side is a standing 
capacity both to plan and deliver. What we have with an 
organization like ours with 2,100 people, we are fully 
committed. Everybody is out doing something. We don't have any 
planning capacity.
    So what we need is to create a civilian unit that can link 
up with our military planners at D-minus-180 and then work 
these problems out ahead of time, pull the resources in. So 
that would be to my----
    Mr. Davis of Kentucky. Sort of a department of everything 
else to fill in all those blank spots we----
    Mr. Kunder. A sort of joint staff for the civilian side of 
the U.S. Government.
    But we have that idea. The U.S. interagency, to his credit, 
with full military participation created the new coordinator 
for reconstruction and stabilization at the State Department.
    And that was the concept, to bring the Justice Department, 
Agriculture, USAID, to the table ahead of time so we can link 
up without having a pick-up game in the middle of a crisis.
    And I would respect for an individual to suggest. That is 
something that we all, both branches of the U.S. Government 
ought to get firmly behind and put the resources into. Because 
that is what we need at the time when we need, not 180 days 
later.
    Mr. Davis of Kentucky. Well, if the goal is to eventually 
create a Pashto Napa Valley, I think that in a conflict that 
something like that is necessary. And let us know how we can 
help you with this.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Missouri had a few more questions.
    Mr. Skelton. I am somewhat confused. One of the major 
complements in Iraq is the lack of civilian agencies from our 
government assisting, as well as the interagency cooperation.
    I have had discussions with General Casey and Secretary 
Rice about this regarding Iraq. And hearing what you have to 
say today, that does not seem to be the case despite the fact 
that General McCaffrey suggested to us that an effective 
interagency process in Afghanistan is completely absent.
    What is the truth, General?
    General Eikenberry. I only speak, Congressman, from my 
experience on the ground. And if I look at the deployed out to 
the field with our provincial reconstruction teams, we do have 
coherent interagency teams that exist across the board there.
    With regard to the military's own cooperation and our 
collaboration with the United States embassy, I consider 
Ambassador Ron Neumann my teammate in our approach to our fight 
in Afghanistan.
    Mr. Skelton. That is not answering the question. Do you 
have sufficient numbers? Are they cooperating with each other? 
That is not the case in Iraq. Is that the case in Afghanistan?
    General Eikenberry. Congressman, there are different areas 
I think within our provincial reconstruction teams of 
Afghanistan, there are different kinds of expertise out there.
    We could use more Department of Agriculture, in my own 
view. We can use other kinds of experts in those provincial 
reconstruction teams. Let's say, for example, a justice expert.
    Whether or not that person has to come from the United 
States Government, should be contractor, I don't know. But 
there are certainly different kinds of expertise that are 
needed right now in our provincial reconstruction team, which 
would be helpful.
    Mr. Skelton. Thank you.
    Ms. Long, from your vantage point in your position, could 
you describe for us planned both military and civilian 
involvement in Afghanistan over the long term, both involving 
NATO, military involvement and coordinated supplemental 
operations?
    It is not clear, at least to me, about the long-term United 
States strategy from your vantage point as to where you sit.
    Ms. Long. Yes, sir. And thank you for the opportunity to do 
so.
    From a long-term perspective, the department's long-term 
strategy with Afghanistan is set forth in the agreement signed 
between President Bush and President Karzai last year, which is 
our security partnership relationship. And on that document, we 
are committed to the security of Afghanistan and helping them 
build their institutions and dealing with insurgency and other 
threats to their national sovereignty, as well as their 
security.
    We are committed to helping them and assisting them as 
regards to criminality that is a threat, their narcotics 
problem, as well as internal and external threats to their 
security.
    From a long-term perspective, as you know, sir, NATO is 
going through a number of phases in order to assume, in that 
phased approach, responsibility for additional territories 
within Afghanistan.
    The most recent phase, of course, we discussed earlier is 
the stage three, which will be occurring this July where NATO 
will move and take responsibility for additional territories in 
the south. That will be under the command of the United 
Kingdom.
    There are, as you know, provisions made for the U.S. 
Government, in particular the Defense Department, with 
coalition partners to remain and retain responsibility for the 
counterterrorism aspect of our relationship with Afghanistan in 
parallel to that structure.
    NATO has agreed and set forth a plan for stage four. The 
timing of that is conditions and undetermined at this time.
    And that will occur at the point in time when NATO is 
prepared and the conditions are right for NATO to assume the 
responsibility for the remaining territory of Afghanistan and 
that, of course, is in the east.
    I think the long-term commitment as set forth in the 
partnership agreement is the one that not only the president 
supports, but the Department of Defense and President Karzai 
are very pleased about.
    And what it is, is a commitment, long term, to help 
Afghanistan and the international community build not only the 
security apparatus, which would be the Afghan National Army and 
the police, but the corresponding institutions, as well assist 
them with the reconstruction and development of the 
corresponding economic institutions.
    Mr. Skelton. Thank you very much.
    General, tell us how well the Pakistani forces are 
cooperating with you and your military efforts?
    General Eikenberry. Congressman, the cooperation that we 
have got now with the Pakistan military along the border is, I 
think, quite good. To give you an example of the state of 
cooperation, collaboration that we have not with just the 
Pakistan army, but with the Afghan army as well and the Afghan 
National Police, in advance of Operation Mountain Thrust, which 
I discussed earlier, sir, we didn't have a full exchange of 
information with the Pakistan military and, of course, with our 
Afghan National Army allies.
    And the Pakistan army with regard to that operation has 
been very cooperative and very helpful.
    We have also achieved a level of cooperation and 
communications with them now where, along the border, we have 
communications protocols that have been established. There has 
been an exchange of radios that has taken place.
    And so when we do have incidents that occur along the 
border area, we are able to communicate quickly.
    And I am very satisfied when we do have incidents along the 
border about the degree of cooperation and teamwork that both 
sides are showing.
    Mr. Skelton. One last question. General, this falls under 
the category of who is the enemy. Of course, you have the 
Taliban. And you have the al Qaeda. But the real bottom line 
is, are the various leaders or warlords, whichever you choose 
to use, are they cooperating with them, with you, or are they 
neutral?
    General Eikenberry. Sir, the enemies of Afghanistan, they 
are complex. And I know that is what you are getting at.
    There are terrorists. There are Taliban. There are narco-
traffickers. There are the enemies of the campaign progress 
here in Afghanistan, which can be anything from, as you would 
say, the warlord to a corrupt governor--can be enemies of 
progress in Afghanistan.
    We always keep in mind, though, that that set of al Qaeda, 
the Taliban extremists, that is a group that is separate and 
distinct.
    Did they have some connections in some places with other 
actors in Afghanistan? I am sure that they do. There are 
various connections that occur.
    But in the main, that group of Taliban extremists, al 
Qaeda, they remain the enemies of all the people of 
Afghanistan. And they remain clearly our strategic enemy.
    Mr. Skelton. Thank you very much.
    Mr. Chairman, I think the witnesses should be complimented 
on the outstanding work that they have done.
    The Chairman. Well, I agree with the gentleman. I think 
they should also be complimented on their endurance. 
[Laughter.]
    Thanks a lot.
    Yes, sir, general.
    General Eikenberry. Sir, with your permission, I would just 
like to make a final remark to recognize----
    The Chairman. Absolutely.
    General Eikenberry [continuing]. Our soldiers, sailors, 
airmen, Marines in Afghanistan.
    Sir, first of all, we are a coalition. We are partners with 
NATO. But our coalition that we have right now, I would like to 
just state that the tremendous sacrifice that the Afghan 
National Army, the Afghan National Police, who are taking 
causalities far in excess of our own casualties on the ground 
right now, and are fighting ferociously for their homeland, all 
of our coalition allies.
    In the last two months, we have lost brave French soldiers, 
Canadian soldiers, British soldiers, Romanian soldiers, and 
then our own forces on the ground, sir, that I know that 
everyone here is extremely proud of.
    On any given day in Afghanistan, at this very moment as we 
are speaking, there are female medics of the U.S. Army that are 
somewhere in Uruzgan province right now delivering for the 
first time ever to some Pashtun women in Uruzgan front-line 
medical care. There are engineers right now that are building 
roads in central Afghanistan under very tough conditions. Out 
in Herat, in the west, we have got special operations forces 
that are training the Afghan National Army.
    And then, we never forget, sir, that at this time that we 
are speaking, in northern Helmand province, at temperatures of 
about 120 degrees, we have got the Afghan National Army and our 
special forces that are taking the fight to the enemy.
    In Konar province, at altitudes of about 12,000 feet, we 
have got conventional infantry forces with the Afghan National 
Army and Police that are in extremely tough conditions, 
freezing at night, that are taking the fight to this enemy.
    And every day, sir, we remain on the offensive against this 
very dangerous threat.
    Sir, I appreciate also--and I know I speak for all the 
members of our armed forces. We appreciate your leadership and 
all the members of the committee for their great support of our 
forces as you provide the means for us to stay the best 
equipped and toughest armed forces that has ever been fielded.
    Thank you, sir.
    The Chairman. Well, General, thank you.
    And we are going to break and go up to 2337.
    But let me just observe that this is an enormous challenge. 
And maybe this could be aptly called the forgotten war, because 
so much focus has been on Iraq. This is a very difficult 
challenge. This is nation-building.
    And if there is any with great respect for our coalition 
forces and for the NATO forces in this anticipated increase in 
the NATO forces in the theater--this is an American-led 
operation. There is no other country in the world that could do 
this. And if anybody can do it, we can because we are 
Americans.
    And we very greatly appreciate and understand that both the 
elections in Iraq and the elections in Afghanistan were carried 
on the backs of American fighting personnel.
    And, you know, incidentally, these provincial 
reconstructions teams, one thing that I noticed is that our 
national guardsmen, who now are part of this total force and 
make up a big piece of the American force in both theaters, are 
special forces of a sort.
    Because, as my Marine son described to me, he said, Dad, 
these guys come from real jobs in the real world. And they have 
almost every discipline. And he said, you go over to their 
operation and many times, they have put up little communities 
because they have got plumbers and electricians and craftsmen 
and business people.
    And so I think perhaps the most effective provincial 
reconstruction teams that we have ever fielded haven't come 
from academia and haven't come from the State Department. They 
have come from the guys wearing those cami fatigues, that 
desert cami, who back home have the disciplines that are 
directly applicable to this nation-building that we are 
involved in, and in many cases community-building, in many 
cases economy-building, and in many cases, today in your 
theater, ag, lots of agriculture endeavors.
    So this is a multi-talented force that we have.
    And I think it is interesting that perhaps the most 
effective with this new dimension of having to stand up a 
nation. Not just stand up a military, but stand up a nation in 
both Iraq and Afghanistan. Some of the most effective we have 
got are forces that, heretofore, weren't deployed forward.
    When you think of the Vietnam era, most of our national 
guardsmen didn't participate. Today, we move with a total 
force. And they bring this spectrum of skills that otherwise we 
would have to pay a fortune for in terms of bringing over 
specialists in these given areas.
    And instead, we find out that the guy that we are paying a 
sergeant's salary to, who is wearing a desert camouflage 
uniform, he has the ability to wire that house, or to plumb 
that house, or to teach the people in the community how to do 
it, or to get that irrigation line going and along those lines.
    So thank you, General. Give our very best to--and let me 
tell you, the folks that are in this committee, Democrat and 
Republican, visit the warfighting theaters often, as you know. 
And we are very, very appreciative. And we are going to be 
seeing a lot of you over there.
    Now, we are going to adjourn to 2337, and we will talk 
about that.
    But one last question, ladies, and to Mr. Kunder. This loya 
jirga, in talking with folks who are working this agriculture 
substitution, if you will, program, they talk about the loya 
jirga--that is the council, I take it, the Afghan council.
    It is a traditional thing where people get together. And 
the elders bring up issues of the day and they talk it over. 
And they either accept proposals or they don't accept them.
    Is that being utilized to the fullest degree possible in 
this substitution program in terms of convincing a community to 
start substituting out poppies and substitution in almonds or 
other orchard crops? Are we using that tradition?
    Mr. Kunder. Yes, sir, very much.
    The Chairman. And we are not just imposing on them or 
telling them how it is going to be.
    Mr. Kunder. We would be fools to walk in as outsiders and 
try to lecture these folks without getting the village 
community in it.
    And by the way, sir, not just on areas on that, but where 
we have had some of these recent Taliban attacks on burning 
schools and so forth.
    We have redoubled our efforts to make sure we get the 
community buy in. Because if the community supports the 
project, it is not just going to be more successful, but they 
are going to provide the security themselves against those who 
want to push back.
    So you are absolutely correct, sir. We are asking the 
community first, ascertaining what their priorities are in 
terms of agriculture. Because they know something about 
marketing obviously well. They have been doing it a couple of 
thousand years. But that is a critical part of what we are 
doing. Yes, sir.
    The Chairman. Okay.
    Well, folks, thanks a lot. Thanks for your endurance.
    And we will take a 15-minute break. And we will go into a 
classified session at 2337.
    Thank you very much for this extended testimony.
    Mr. Kunder. Thank you, Mr. Chairman.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]
?

      
=======================================================================



 
                            A P P E N D I X

                             June 28, 2006

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 28, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32979.001
    
    [GRAPHIC] [TIFF OMITTED] 32979.002
    
    [GRAPHIC] [TIFF OMITTED] 32979.003
    
    [GRAPHIC] [TIFF OMITTED] 32979.004
    
    [GRAPHIC] [TIFF OMITTED] 32979.005
    
    [GRAPHIC] [TIFF OMITTED] 32979.006
    
    [GRAPHIC] [TIFF OMITTED] 32979.007
    
    [GRAPHIC] [TIFF OMITTED] 32979.008
    
    [GRAPHIC] [TIFF OMITTED] 32979.009
    
    [GRAPHIC] [TIFF OMITTED] 32979.010
    
    [GRAPHIC] [TIFF OMITTED] 32979.011
    
    [GRAPHIC] [TIFF OMITTED] 32979.012
    
    [GRAPHIC] [TIFF OMITTED] 32979.013
    
    [GRAPHIC] [TIFF OMITTED] 32979.014
    
    [GRAPHIC] [TIFF OMITTED] 32979.015
    
    [GRAPHIC] [TIFF OMITTED] 32979.016
    
    [GRAPHIC] [TIFF OMITTED] 32979.017
    
    [GRAPHIC] [TIFF OMITTED] 32979.018
    
    [GRAPHIC] [TIFF OMITTED] 32979.019
    
    [GRAPHIC] [TIFF OMITTED] 32979.020
    
    [GRAPHIC] [TIFF OMITTED] 32979.021
    
    [GRAPHIC] [TIFF OMITTED] 32979.022
    
    [GRAPHIC] [TIFF OMITTED] 32979.023
    
    [GRAPHIC] [TIFF OMITTED] 32979.024
    
    [GRAPHIC] [TIFF OMITTED] 32979.025
    
    [GRAPHIC] [TIFF OMITTED] 32979.026
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 28, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 32979.027
    
    [GRAPHIC] [TIFF OMITTED] 32979.028
    
    [GRAPHIC] [TIFF OMITTED] 32979.029
    
    [GRAPHIC] [TIFF OMITTED] 32979.030
    
    [GRAPHIC] [TIFF OMITTED] 32979.031
    
    [GRAPHIC] [TIFF OMITTED] 32979.032
    
    [GRAPHIC] [TIFF OMITTED] 32979.033
    
    [GRAPHIC] [TIFF OMITTED] 32979.034
    
    [GRAPHIC] [TIFF OMITTED] 32979.035
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 28, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. I would like to know, how much money are we spending 
with those four contractors or their subsidiaries in Afghanistan?
    Mr. Kunder. Since establishing its Afghanistan operations in 2002, 
USAID has not held contracts with, nor expended resources for work in 
Afghanistan to Halliburton, KRB, Bechtel or Dyncorp.
    We have held a contract with the Louis Berger Group (LBG) in the 
amount of $700 million over four years. LBG is USAID's largest 
contractor in Afghanistan and has been responsible for significant 
infrastructure projects, including: refurbishing major portions of 
Afghanistan's roads, both primary and secondary; constructing schools 
and clinics; improving critical segments of irrigation canals; and, 
rehabilitating hydropower at the Kajakai Dam, the primary source of 
power in the south.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. When was the Joint Coordination and Monitoring Board 
put in place?
    Ms. Long. The Joint Coordination and Monitoring Board (JCMB)--a key 
outcome of the London Donor's Conference on Afghanistan--was 
established to track donor pledges and monitor aid effectiveness. The 
JCMB met for the first time on April 30, 2006 and for the second time 
on July 30, 2006. Smaller, issue-focused sub-groups have met numerous 
times to accelerate progress in key areas, such as power sector 
development, airport security, and police pay reform.
                                 ______
                                 
             QUESTIONS SUBMITTED BY MS. DAVIS OF CALIFORNIA
    Ms. Davis. And what is the number or the proportion of people that 
speak Farsi?
    Mr. Gastright. All State Department provincial reconstruction team 
(PRT) positions in the field are language designated for either Pashto 
or Dari. Currently, there are two Dari speakers in the field, and we 
are aggressively recruiting for next year, with the goal of having one 
person in language training for every PRT position. As these are one-
year assignments, this year we are recruiting two people for every 
position and expect to significantly increase our cadre of language-
capable officers over the next few years.
    Ms. Davis. Do you know how many Department of State individuals are 
there working in PRT teams throughout the country [Afghanistan]?
    Mr. Gastright. At this time, there are 28 State Department 
positions in Afghanistan working at or supporting the work of 
provincial reconstruction teams (PRTs). The State Department has a 
representative at 20 out of the 23 PRTs throughout the country, as well 
as having two representatives at the ISAF Headquarters, and one 
representative each at Regional Command South and Regional Command 
East. There are also four positions inn Embassy Kabul's political 
section devoted to supporting the work of the PRTs. USAID has 18 
positions working on PRT teams throughout Afghanistan, including at all 
PRTs led by the United States.

                                  <all>

</pre></body></html>
